App. 1
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
INSTITUTE FOR FREE
SPEECH, FKA Center for
Competitive Politics,
v.

No. 17-17403

D.C. No.
2:14-cv-00636-MCE-DB
Plaintiff-Appellant, Eastern District of
California, Sacramento

XAVIER BECERRA, in his ORDER
ofﬁcial capacity as Attorney (Filed Oct. 11, 2019)
General of the State of
California,
Defendant-Appellee.
Before: SILVERMAN, W. FLETCHER, and RAWLINSON,
Circuit Judges.
Appellant’s urgent motion to withdraw opposition
to the motion for summary afﬁrmance (Docket Entry
No. 32) is granted.
The motion for summary afﬁrmance (Docket Entry No. 25) is granted. See Center for Competitive Politics v. Harris, 784 F.3d 1307 (9th Cir. 2015); United
States v. Hooton, 693 F.2d 857, 858 (9th Cir. 1982)
(summary disposition is appropriate for appeals
clearly controlled by precedent).
AFFIRMED.

App. 2
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA.
CENTER FOR
No. 2:14-cv-00636-MCECOMPETITIVE POLITICS, DB
Plaintiff,
v.

MEMORANDUM
AND ORDER

(Filed Oct. 31, 2017)
Kamala HARRIS, in her
ofﬁcial capacity as Attorney
General of the State of
California,
Defendant.
Through the present action, Plaintiff Center for
Competitive Politics (“Plaintiff ”) seeks to permanently
enjoin against Defendant Kamala Harris in her ofﬁcial
capacity as Attorney General of the State of California
(“Defendant”) from requiring an unredacted copy of
Plaintiff ’s IRS Form 990 Schedule B as a condition of
soliciting funds in California on grounds that said requirement violates Plaintiff ’s rights under the First
and Fourth Amendments to the United States Constitution, and further violates the Constitution’s Supremacy Clause.1 Plaintiff brings those claims under the
auspices of 42 U.S.C. § 1983. Now before the Court is
Defendant’s Motion to Dismiss Plaintiff ’s First
1

In its opposition, Plaintiff does not substantively address
Defendant’s request that its Supremacy Clause preemption argument be dismissed, indicating only that it wishes to preserve that
contention for [sic]

App. 3
Amended Complaint (“FAC”) in its entirety, brought
under Federal Rule of Civil Procedure 12(b)(6) on
grounds that it fails to state a claim upon which relief
can be granted. For the reasons set forth below, Defendant’s Motion is GRANTED.2
BACKGROUND
Plaintiff is a Virginia nonproﬁt corporation recognized by the Internal Revenue Service as a § 501(c)(3)
public charity. FAC, ¶ 3. Its stated mission is “to promote and defend the First Amendment rights of free
political speech, assembly, association, and petition
through research, education, and strategic litigation.”
Center for Competitive Politics v. Harris (“CCP”), 784
F.3d 1307, 1311 (9th Cir. 2015). To support its activities, Plaintiff solicits charitable contributions nationwide, including California. Id.
To ensure that charitable status is not abused, the
Attorney General has “broad powers under common
law and California statutory law to carry out [its] charitable trust enforcement responsibilities.” Id. at 1310;
Cal. Gov’t Code § 12598(a). In order to legally solicit
tax-deductible contributions in California, for example,
an entity must be registered with the state’s Registry
of Charitable Trusts (“Registry”), which is administered by California’s Department of Justice under the
Supervision of Trustees and Fundraisers for
2

Having determined that oral argument would not be of material assistance, the Court ordered this Motion submitted on the
briefs in accordance with E.D. Local Rule 230(g).

App. 4
Charitable Purposes Act, Cal. Gov’t Code §§ 12580 et
seq. (“the Act”). In addition to requiring the California
Attorney General to maintain a registry of charitable
corporation and their trustees and trusts, the Act authorizes the Attorney General to obtain “whatever information, copies of instruments, reports, and records
are needed for the establishment and maintenance of
the [Registry]. Id. at § 2485.
To maintain membership in the Registry, nonproﬁt corporations must ﬁle annual periodic written
reports with the state Attorney General, and the Act
requires that the Attorney General promulgate rules
and regulations specifying both the ﬁling and procedures and the contents of the reports. Id. at § 12586(b);
Cal. Code Regs. Tit. 11, §§ 300 et seq. (2014). One of the
regulations adopted by the Attorney General requires
the periodic written reports to include Internal Revenue Service Form 990. Form 990 has a supplement,
Schedule B, which lists the names and addresses of an
organization’s contributors. Although many of the documents required by the Registry are open to public inspection, the contents of Form 990 Schedule B have
always been considered conﬁdential, accessible only to
in-house-staff and handled separately from nonconﬁdential documents. See CCP, 784 F.3d at 1311.
Moreover, in order to codify that longstanding practice
on only nonpublic disclosure, California Code of Regulations § 310 was amended effective July 8, 2016 to
provide as follows:

App. 5
Donor information exempt from public inspection pursuant to Internal Revenue Code section 6104(d)(3)(A) shall be maintained as
conﬁdential by the Attorney General and
shall not be disclosed except as follows: (1) In
a court or administrative proceeding brought
pursuant to the Attorney General’s charitable
trust enforcement responsibilities; or (2) In
response to a search warrant.
Cal. Code Regs., tit. 11, § 310(b) (2016).
Plaintiff has been a member of the Registry since
2008. On January 9, 2014, Plaintiff ﬁled its Annual
Registration Renewal Fee Report with Defendant, including a copy of its Form 990 and a redacted version
of its Schedule B omitting the names and addresses of
its contributors. Plaintiff subsequently received a letter from Defendant dated February 6, 2014 (“Letter”).
See ECF No. 37-2. In the Letter, Defendant acknowledged receipt of Plaintiff ’s periodic written report, but
stated that “[t]he ﬁling is incomplete because the copy
of [its] Schedule B, Schedule of Contributors, does not
include the names and addresses of contributors.” Id.
(emphasis omitted). The Letter advised that “[t]he
Registry retains Schedule B as a conﬁdential record for
IRS Form 990 and 990-EZ ﬁlers” and requires that
Plaintiff must “[w]ithin 30 days of the date of this letter . . . submit a complete copy of Schedule B, Schedule
of Contributors, for the ﬁscal year noted above, as ﬁled
with the Internal Revenue Service.” Id. (emphasis
omitted).

App. 6
On March 7, 2014, Plaintiff ﬁled the present suit
against then Attorney General Kamala Harris, in her
ofﬁcial capacity, challenging the Attorney General’s
disclosure requirements and seeking declaratory and
injunctive relief. Plaintiff subsequently ﬁled a motion
for preliminary injunction claims on grounds that said
requirements unconstitutionally infringed upon its
freedom of association, and that requiring the submission of an unredacted Schedule B was preempted by
federal law in any event. That motion was denied. With
respect to the freedom of association claim, the Court
reasoned that Plaintiff had not articulated any objective, speciﬁc harm that would befall its members as a
result of compliance with the Schedule B Requirement,
and thus had failed to make a prima facie showing of
infringement concerning its associational rights. Center for Competitive Politics v. Harris, No. 2:14-cv00636-MCE-DAD, 2014 WL 2002244 at *6 (E.D. Cal.
May 14, 2014). The Court further opined that the requirement was valid in any event because it substantially related to the Attorney General’s compelling
interest in performing her regulatory and oversight
functions. Id. at *7.
Plaintiff appealed this Court’s denial of its preliminary injunction request and the Ninth Circuit afﬁrmed, determining, in relevant part, that the
requirement to disclose unredacted Schedule B information to the Attorney General posed no actual burden
on Plaintiff ’s First Amendment rights and was facially
constitutional. CCP, 784 F.3d at 1317. In assessing the
burden on Plaintiff ’s First Amendment rights as a

App. 7
result of the disclosure requirements, the appellate
panel made it clear that compelled disclosure alone
does not constitute a First Amendment injury. See id.
at 1314. Rather to prevail on a First Amendment challenge to compelled disclosure of its donor information,
the court found Plaintiff had to produce “evidence to
suggest that their signiﬁcant donors would experience
threats, harassment, or other potentially chilling conduct as a result of the Attorney General’s disclosure requirements.” Id. at 1316. Plaintiff did not attempt, and
thus failed to make, any such showing. Id.
Given the absence of any actual burden on Plaintiff ’s First Amendment rights, the Ninth Circuit then
weighed the Attorney General’s “compelling interest in
enforcing the laws of California,” which included having “immediate access to form 990 Schedule B” ﬁlings.
Id. at 1316. The panel recognized that immediate access to Schedule B ﬁlings “increases her investigative
efﬁciency” by allowing her to “ﬂag suspicious activity”
by reviewing signiﬁcant donor information. The court
thus concluded that requiring the disclosure of Schedule Bs “bears a ‘substantial relation’ ” to a “ ‘sufﬁciently
important’ government interest”, therefore satisfying
examination under exacting scrutiny. Id.
Following the Ninth Circuit’s denial of its interlocutory appeal, Plaintiff ﬁled a petition for writ of certiorari, which was denied by the United States Supreme
Court on November 9, 2015. Plaintiff then ﬁled its FAC
on August 12, 2016. ECF No. 37. The FAC continues
to allege that the Attorney General’s unredacted
Schedule B requirement violates Plaintiff ’s First

App. 8
Amendment rights to free association and speech and
is preempted by federal law. Plaintiff further argues
that its Fourth Amendment right to be free from unreasonable search and seizure is also being violated.
Plaintiff allegedly has chosen to cease fundraising in
California rather than comply with the requirement
that it ﬁle a complete copy of its Schedule B with the
Registry. FAC, ¶ 51.
STANDARD
On a motion to dismiss for failure to state a claim
under Federal Rule of Civil Procedure 12(b)(6), all allegations of material fact must be accepted as true and
construed in the light most favorable to the nonmoving
party. Cahill v. Liberty Mut. Ins. Co., 80 F.3d 336,33738 (9th Cir. 1996). Rule 8(a)(2) requires only “a short
and plain statement of the claim showing that the
pleader is entitled to relief ” in order to “give the defendant fair notice of what the . . . claim is and the
grounds upon which it rests.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007) (quoting Conley v.
Gibson, 355 U.S. 41, 47 (1957)). A complaint attacked
by a Rule 12(b)(6) motion to dismiss does not require
detailed factual allegations. However, “a plaintiff ’s obligation to provide the grounds of his entitlement to relief requires more than labels and conclusions, and a
formulaic recitation of the elements of a cause of action
will not do.” Id. (internal citations and quotations omitted). A court is not required to accept as true a “legal
conclusion couched as a factual allegation.” Ashcroft v.
Iqbal, 129 S. Ct. 1937, 1950 (2009) (quoting Twombly,

App. 9
550 U.S. at 555). “Factual allegations must be enough
to raise a right to relief above the speculative level.”
Twombly, 550 U.S. at 555 (citing 5 Charles Alan Wright
& Arthur R. Miller, Federal Practice and Procedure
§ 1216 (3d ed. 2004) (stating that the pleading must
contain something more than “a statement of facts that
merely creates a suspicion [of ] a legally cognizable
right of action.”)).
Furthermore, “Rule 8(a)(2) . . . requires a showing,
rather than a blanket assertion, of entitlement to relief.” Twombly, 550 U.S. at 556 n.3 (internal citations
and quotations omitted). Thus, “[w]ithout some factual
allegation in the complaint, it is hard to see how a
claimant could satisfy the requirements of providing
not only ‘fair notice’ of the nature of the claim, but also
‘grounds’ on which the claim rests.” Id. (citing 5
Charles Alan Wright & Arthur R. Miller, supra, at
§ 1202). A pleading must contain “only enough facts to
state a claim to relief that is plausible on its face.” Id.
at 570. If the “plaintiffs . . . have not nudged their
claims across the line from conceivable to plausible,
their complaint must be dismissed.” Id. However, “[a]
well-pleaded complaint may proceed even if it strikes
a savvy judge that actual proof of those facts is improbable, and ‘that a recovery is very remote and unlikely.’ ”
Id. at 556 (quoting Scheuer v. Rhodes, 416 U.S. 232, 236
(1974)).
A court granting a motion to dismiss a complaint
must then decide whether to grant leave to amend.
Leave to amend should be “freely given” where there is
no “undue delay, bad faith or dilatory motive on the

App. 10
part of the movant, . . . undue prejudice to the opposing
party by virtue of allowance of the amendment, [or] futility of the amendment. . . . ” Foman v. Davis, 371 U.S.
178, 182 (1962); Eminence Capital, LLC v. Aspeon, Inc.,
316 F.3d 1048, 1052 (9th Cir. 2003) (listing the Foman
factors as those to be considered when deciding
whether to grant leave to amend). Not all of these factors merit equal weight. Rather, “the consideration of
prejudice to the opposing party . . . carries the greatest
weight.” Id. (citing DCD Programs, Ltd. v. Leighton,
833 F.2d 183, 185 (9th Cir. 1987)). Dismissal without
leave to amend is proper only if it is clear that “the complaint could not be saved by any amendment.” IntriPlex Techs. v. Crest Group, Inc., 499 F.3d 1048, 1056
(9th Cir. 2007) (citing In re Daou Sys., Inc., 411 F.3d
1006, 1013 (9th Cir. 2005); Ascon Props., Inc. v. Mobil
Oil Co., 866 F.2d 1149, 1160 (9th Cir. 1989) (“Leave
need not be granted where the amendment of the complaint . . . constitutes an exercise in futility. . . .”)).
ANALYSIS
As the Ninth Circuit recognized in CCP, Plaintiff ’s
challenge to the Attorney General’s Schedule B ﬁling
requirement is made on facial grounds. CCP, 784 F.3d
at 1314, n.5. This is because Plaintiff ’s claim is not limited to its particular case, but instead challenges application of the Attorney General’s requirement to all
Registry submissions. Since the relief as requested by
Plaintiff would necessarily reach beyond Plaintiff ’s
particular circumstances, Plaintiff ’s claim must satisfy the standards of a facial challenge. John Doe. No.

App. 11
1 v. Reed, 561 U.S. 186, 194; citing United States v. Stevens, 559 U.S. 460, 472-73 (2010). In order to invalidate
a law as facially overbroad, at the very least Plaintiff
must show that “a substantial number of its applications are unconstitutional, judged in relation to the
statute’s plainly legitimate sweep.” Stevens, 559 U.S.
at 473. The Court will thus analyze Plaintiff ’s claims
here under those criteria.
A. Absence of Injury Forecloses Plaintiff ’s
First Amendment Associational Rights
Claim
First Amendment challenges to disclosure requirements are evaluated under “exacting scrutiny.”
See John Doe No. 1 v. Reed, 561 U.S. at 196; CCP, 784
F.3d at 1314-15. In making this analysis, the Court
must “ﬁrst ask whether the challenged regulation burdens First Amendment rights. If it does, [it] then assesses whether there is a ‘substantial relation’ between
the burden imposed by the regulation and a ‘sufﬁciently important’ governmental interest.” Protectmarriage.com – Yes on 8 v. Bowen, 752 F.3d 827, 832 (9th
Cir. 2014). Compelled disclosure like that challenged
here does not alone constitute First Amendment injury.
Instead, the court must balance the “actual burden”
posed by such a requirement on a plaintiff ’s First
Amendment rights. CCP, 784 F.3d at 1315, citing John
Doe No. 1 v. Reed, 561 U.S. at 196. Where there has
been no factual showing of injury, a regulation generally passes muster under the exacting scrutiny standard. Buckley v. Valeo, 424 U.S. 1, 69-71 (1976).

App. 12
Applying this analysis to the present matter, the
Ninth Circuit has already noted that Plaintiff “does
not claim and produces no evidence to suggest that
their signiﬁcant donors would experience threats, harassment or other potential chilling conduct as a result
of the Attorney’s General’s disclosure requirement,”
and thus has failed to demonstrate any “actual burden”
on its freedom of association cognizable as a First
Amendment injury. CCP, 784 F.3d at 1314, 1316. CCP
made this ﬁnding in the face of Plaintiff ’s arguments
that “the Attorney General’s systems for preserving
are not secure, and that its signiﬁcant donors’ names
might be inadvertently accessed or released.” Id. at
1316 (emphasis added). The Ninth Circuit rejected
that argument, however, describing it as “speculative”
and not constituting “evidence that would support
CCP’s claim that disclosing its donor to the Attorney
General for her conﬁdential use would chill its donors’
participation.” Id., citing United States v. Harriss, 347
U.S. 612, 626 (1954). Consequently, given the lack of
cognizable injury and the Attorney General’s “compelling interest” in enforcing California laws pertaining to
charitable contributions, CCP found that the Attorney
General’s Schedule B disclosure requirement was facially constitutional. Moreover, another Ninth Circuit
panel which reviewed a preliminary injunction ruling
on the very same issue some six months later reached
the same conclusion, stating that it was “bound by our
holding in [CCP] that the Attorney General’s nonpublic Schedule B disclosure regime is facially constitutional.” Americans for Prosperity Foundation v. Harris,
809 F.3d 536, 538 (9th Cir. 2015)

App. 13
Plaintiff urges this Court not to accept the Ninth
Circuit’s analyses in this regard since they were made
in the context of preliminary injunction decisions that
may have been made “hastily on less than a full record”
and consequently may “provide little guidance as to
the appropriate disposition on the merits.” Rodriguez
v. Robbins, 804 F.3d 1060, 1080 (9th Cir. 2015). Plaintiff
therefore contends that “this Court is not bound by the
Court of Appeals’ decision to give the Attorney General
the beneﬁt of the doubt” in ﬁnding that the regulation
satisﬁed exacting scrutiny. See Pl.’s Opp., 6:3-4.
Plaintiff ’s argument in this regard is misplaced
since Plaintiff amended its complaint in the face of the
Ninth Circuit’s admonition as to the shortcomings of
their claims, yet the FAC still fails to identify any cognizable burden on Plaintiff ’s freedom of association.
Indeed, the FAC still falls short of the mark in that
there are no allegations that the Attorney General’s
demand for and collection of Schedule B forms for nonpublic use has caused any threat, harm, or negative
consequences to Plaintiff or its members. To the contrary, as Defendant point outs, “the singular effect of
the Schedule B requirement on [P]laintiff appears to
be that it has chosen not to fundraise in California rather than comply with state law.” Def.’s Mot, 11:1-3, citing FAC, ¶ 51.
This argument is insufﬁcient to satisfy the requirement that an actual injury be shown. Plaintiff ’s
voluntary decision to forego the privilege of soliciting
funds as a tax-exempt entity, rather than comply with
a law it deems unconstitutional, is not a cognizable

App. 14
First Amendment harm. See Citizens United v. Schneiderman, 203 F. Supp. 3d 397, 407 (S.D.N.Y. 2016)
(“[T]he desire for privacy and loss of donations alone
does not render viable an as-applied challenge to a disclosure regime.” (citing Buckley, 424 U.S. at 71-72)); see
also Caplan v. Fellheimer Eichen Braverman & Kaskey, 68 F.3d 828, 839 (3rd Cir. 1995) (“Because defendants have acted to permit the outcome that they deem
unacceptable, we must conclude that such an outcome
is not an irreparable injury. If the harm complained of
its self-inﬂicted, it does not qualify as irreparable.”).
Although compelled disclosures have been upheld
as interfering with an entity’s associational rights on
an as-applied basis, and while the Ninth Circuit recognized in CCP that such disclosures could succeed if
such disclosure of a contributors’ names would subject
the entity “to threats, harassment, or reprisals from either Governmental ofﬁcials or private parties” (CCP,
784 F.3d at 1315, citing Buckley v. Valeo, 424 U.S. at
74), no such showing has been made here. As indicated
above, the FAC still contains no allegation suggesting
that the Attorney General’s demand for and collection
of Schedule B forms has caused any such consequences. Therefore, Plaintiff cannot analogize its position to as-applied challenges involving plaintiffs,
generally minority groups, who were “unpopular, viliﬁed and historically rejected by the government and
the citizenry” like the NAACP in the pre-Civil Rights
Era and the Socialist Party during the Cold War.
Brown v. Socialist Workers ’74 Campaign, 459 U.S. 87,
88 (1982); NAACP v. Alabama, 357 U.S. 449, 462-63

App. 15
(1958); see also John Doe No. 1 v. Reed, 823 F. Supp. 2d
1195, 1201 (W.D. Wash. 2011) (noting that as-applied
exemption from disclosure requirements “have been
upheld in only a few cases”). As indicated above, groups
so qualifying were generally subjected to both government-sponsored hostility and brutal, pervasive private
violence both generally and as a result of disclosure
(see, e.g., Brown, 459 U.S. at 89-99; Bates v. Little Rock,
361 U.S. 516, 525 (1960); NAACP, 357 U.S. at 462-63)
such that they could not seek adequate relief from either law enforcement or the legal system. See Protectmarriage.com v. Bowen, 599 F. Supp. 2d 1197, 1217-18
(E.D. Cal. 2009). Plaintiff ’s FAC does not even remotely demonstrate that Plaintiff falls into this limited exception, despite being advised by the Ninth
Circuit’s CCP decision of the requirements for doing so.
CCP, 784 F.3d at 1315.
The only thing Plaintiff does try to do is to allege
that the Attorney General’s professed policy of nondisclosure is less than foolproof. To support that argument, Plaintiff points to a decision rendered by the
Central District following a bench trial in Americans
for Prosperity Foundation v. Harris (“AFPF”), No. CV
14-9448-R, 2016 WL 1610591 (C.D. Cal. April 21, 2016).
In that case, plaintiff AFPF argued that the Attorney
General’s Schedule B disclosure requirement was unconstitutional on an as-applied basis, and the Court’s
decision was “focuse[d] solely” on that as-applied challenge.
The as-applied nature of the challenge in AFPF
alone distinguishes that case from the matter at bar.

App. 16
Indeed, after recognizing that plaintiff ’s challenge in
AFPF was brought on an as-applied basis, the court
further observed that “the Ninth Circuit in [CCP] foreclosed any facial challenge to the Schedule B requirement.” Id. at 1055. Moreover, unlike the present case,
the AFPF decision indicates that “[d]uring the course
of trial, the Court heard ample evidence establishing
that AFPF, its employees, supporters and donors face
public threats, harassment, intimidation, and retaliation once their support for and afﬁliation with the organization becomes publicly known.” Id. The court
went on to cite speciﬁc instances in that regard. Accordingly, the AFPF court found that AFPF supporters
were “subjected to abuses that warrant relief on an asapplied challenge.” Id. Signiﬁcantly, no such abuses
have been identiﬁed in the present case.
In the face of the actual burden on associational
rights identiﬁed in AFPF, the Court went on to examine the strength of the Attorney General’s legitimate
interest in the disclosure. It found that the record before it lacked “even a single, concrete instance in which
pre-investigation collection of a Schedule B did anything to advance the Attorney General’s investigative,
regulatory or enforcement efforts.” Id. at 1055. Consequently, “in light of the requirement’s burdens on
AFPF’s First Amendment rights,” it found that the Attorney General’s interests did not justify those burdens. Id.
Here, the absence of any articulated burden, even
in the wake of the Ninth Circuit’s CCP decision and
Plaintiff ’s subsequent opportunity to ﬁle its FAC,

App. 17
makes the balancing engaged in by AFPF unnecessary.
In the present case, we have, in the face of no identiﬁed
First Amendment burden, the Attorney General’s argument that disclosing the names of signiﬁcant donors
“is necessary to determine whether a charity is actually engaged in a charitable purpose, or is instead violating California law by engaging in self-dealing,
improper loans, or other unfair business practices.”
CCP, 784 F.3d at 1311. Under the circumstances of the
present matter that representation is sufﬁcient to survive exacting scrutiny.
Additionally, plaintiff ’s argument in AFPF for the
proposition that the Attorney General’s ofﬁce has been
unable to keep conﬁdential Schedule Bs private makes
no difference to this analysis. Preliminarily, as a Central District decision, AFPF’s ﬁndings are not binding
on this Court in the ﬁrst place. Secondly, given the
amendment of California Code of Regulations § 310, effective July 8, 2016 (at a point after the AFPF decision
was rendered on April 21, 2016), the Attorney General
now is legally required by law as well as by practice to
maintain the conﬁdentiality of donor information contained in submitted schedules. The fact that conﬁdentiality is now guaranteed by formal regulation weighs
in favor of the reasonableness of the Attorney General’s disclosure requirement.
Having determined that Plaintiff has not stated a
cognizable First Amendment freedom of association
claim, the Court now addresses the second prong of
Plaintiff ’s First Amendment challenge; namely, its

App. 18
argument that the Attorney General’s Schedule B requirement impinges upon free speech.
B. Plaintiff’s First Amendment Free Speech
Claim Also Fails
In addition to alleging the associational claims rejected above, Count I of the FAC also contends that the
requirement to ﬁle a Schedule B “as a predicate to
Plaintiff ’s ability to lawfully speak about a topic or
subject matter—namely charitable solicitation” violates its First Amendment right to free speech. FAC,
¶ 80. The FAC further claims, without supporting facts
or elaboration, that the Schedule B requirement operates as a content-based restriction on charitable solicitation, “which is itself a form of First Amendment
speech.” Id. at ¶¶ 58-62.
To begin with, the FAC fails to identify any speech
that is impacted by the reporting requirement. See Citizens United v. Federal Election Comm’n, 558 U.S. 310,
367 (2010) (setting forth proof to establish threshold
case of harm to speech rights from disclosure). At most,
as already enumerated above, the FAC simply suggests that because Plaintiff has itself elected to not
comply with Schedule B’s requirement and purports to
have accordingly stopped fundraising in California on
that basis, its speech has been impaired.
The Court agrees with Defendant that Plaintiff ’s
argument in this respect fails as a matter of law. Although solicitation of charitable contributions is protected speech (see Riley v. Nat’l Federation of the Blind

App. 19
of North Carolina, Inc., 487 U.S. 781, 789 (1988)), there
is no support for the claim that any regulation that arguably affects the ability or willingness to secure or donate funds is constitutionally invalid. To the contrary,
charitable solicitation is entitled to First Amendment
protection not because it contemplates the right to
raise money, but instead because the act of soliciting
funds is “characteristically intertwined with informative and perhaps persuasive speech.” Village of
Schaumburg v. Citizens for a Better Environment, 444
U.S. 620, 632 (1980); see also Friends of the Vietnam
Veterans Memorial v. Kennedy, 116 F.3d 495, 497 (D.C.
Cir. 1997) (noting that cases protecting the right to solicit contributions do so not based on a First Amendment right to raise money, but because “the act of
solicitation contains a communicative element”).
Being required to later report to the government
on the outcome of charitable solicitation, on the other
hand, does not have the same communicative element
and does not impermissibly “burden” speech. See Riley,
487 U.S. at 800 (requiring detailed ﬁnancial disclosure
forms by professional fundraisers does not burden the
speaker during the course of a solicitation); ACLU v.
Heller, 378 F.3d 979, 992 (9th Cir. 2004) (“[R]equiring
a publisher to reveal her identity on her election related communication is considerably more intrusive
than simply requiring her to report to a governmental
agency for later publication how she spent her money.
The former necessarily connects the speaker to a

App. 20
particular message directly, while the latter may
simply expose the fact that the speaker spoke.”).3
Therefore, as Defendant argues, there is a signiﬁcant constitutional distinction between requiring the
reporting of funds that may be used to ﬁnance speech
and the direct regulation of speech itself. See, e.g.,
Buckley v. Am. Con’l Law Foundation, Inc., 525 U.S.
182, 187, 198-99 (1999); Heller, 378 F.3d at 987, 990-92.
The former category regularly is upheld, while the latter generally is not. Compare John Doe 1 v. Reed, 561
U.S. at 201-02, and Citizens United, 558 U.S. at 366-71
and Buckley, 424 U.S. at 69-72, with Riley, 487 U.S. at
788-802 and McIntyre v. Ohio Election Comm’n, 514
U.S. 334, 345-47, 357 (1995). In the present case, charitable organizations are simply required by law to furnish information about their conﬁdential donors to a
conﬁdential registry. That requirement places no limitations on protected speech; nor does it compel any
speech by fundraisers. Consequently, because no infringement upon speech is present, Plaintiff ’s First

3

Despite Plaintiff ’s argument to the contrary, nothing in the
Supreme Court’s recent decision in Reed v. Town of Gilbert, 135
S. Ct. 2218 (2015) changes this analysis of disclosure requirements, or suggests they should be subject to strict as opposing to
exacting scrutiny. At issue in Reed was a sign code that subjected
various signs to different restrictions depending on their content.
Because those restrictions depended on the communicative element of the sign, the Supreme Court reasoned that they
amounted to “content-based discrimination.” Id. at 2224, 2230.
The Schedule B disclosure requirement, unlike Reed, is both neutral and generally applicable.

App. 21
Amendment speech claim also fails as a matter of law
and must be dismissed on that basis.
C. Plaintiff ’s Fourth Amendment Claim is
Without Merit
In Count II, the FAC goes on to allege that the Attorney General’s Schedule B requirement not only violates the First Amendment, it also operates as an
unconstitutional search and seizure in contravention
of the Fourth Amendment. FAC, ¶ 85. According to the
FAC, because the reporting requirement has “the force
of a subpoena” and does not permit “precompliance review,” it amounts to an unreasonable search and seizure. Id. at ¶¶ 64-68, 85.
The Fourth Amendment provides that “[t]he right
of the people to be secure in their persons, houses, papers, and effects, against unreasonable searches and
seizures, shall not be violated . . . ” To establish a viable
Fourth Amendment claim, a plaintiff must show not
only that there was a search and seizure as contemplated by the Fourth Amendment, but also that said
search and seizure was unreasonable and conducted
without consent. See Rakas v. Illinois, 439 U.S. 128, 143
(1978); United States v. Rubio, 727 F.2d 786, 796-97
(9th Cir. 1983). Governmental conduct can constitute a
search for Fourth Amendment purposes in two ways.
First, a search can occur when “the person invoking
[Fourth Amendment] protection can claim a justiﬁable,
a reasonable, or a legitimate expectation of privacy
that has been invaded by government action.” Smith v.

App. 22
Maryland, 442 U.S. 735, 740 (1979). Under this test,
the plaintiff bears the burden of showing both a subjective and objectively reasonable expectation of privacy. See United States v. Shryock, 342 F.3d 948, 978
(9th Cir. 2003); Rawlings v. Kentucky, 448 U.S. 98, 104
(1980). Second, a Fourth Amendment search can occur
where the government unlawfully occupies private
property for the purpose of obtaining information without consent. United States v. Jones, 565 U.S. 400, 40405 (2012). A “seizure” occurs when there is some
“meaningful interference with an individual’s possessory interests in . . . property.” United States v. Jacobsen, 466 U.S. 109, 113 (1984).
Aside from bare legal conclusions, the FAC does
not demonstrate that the requirement to submit a copy
to the Attorney General, for nonpublic use, of the very
same Schedule B already on ﬁle with the IRS amounts
to a search or seizure within the meaning of the Fourth
Amendment. Nor is any such conclusion obvious under
the circumstances of this case. See id. at 120-124. Indeed, the FAC fails to allege that Plaintiff has any reasonable expectation of privacy that would trigger a
search for Fourth Amendment purposes in information
contained in Schedule B, to the extent that information
is conﬁdentially disclosed to the Attorney General. See
Shryock, 342 F.3d at 978.4 Similarly, with respect to
the second alternative for establishing a Fourth
4

Because the Court concludes that the Schedule B disclosure
requirement does not amount to a search, it is unnecessary to determine there was adequate “precompliance review” as to that requirement.

App. 23
Amendment search, the FAC fails to allege, and could
not reasonably contend, that the Attorney General’s
demand for Schedule B involves governmental “trespass” and/or “meaningful interference with Plaintiff ’s
property. See Jones, 565 U.S. at 405, 407-09; Jacobsen,
466 U.S. at 120-24.
Even if the FAC did establish these threshold requirements for stating a valid Fourth Amendment
claim, which the Court believes it does not, whatever
minimal intrusion into Plaintiff ’s reasonable expectation of privacy the Schedule B requirement might entail is more than outweighed by the Attorney General’s
interest in enforcing the law and protecting the public
from fraud. See United States v. Place, 462 U.S. 696,
703 (1983); see also CCP, 784 F.3d at 1317. Plaintiff ’s
Fourth Amendment claim therefore fails.
CONCLUSION
For all the foregoing reasons, Defendant’s Motion
to Dismiss (ECF No. 44) is GRANTED, in its entirety.5
Because the Court does not believe that further
amendment will rectify the deﬁciencies of the First

5

Having determined that Plaintiff ’s lawsuit fails as a matter of law, Plaintiff ’s Motion for Preliminary Injunction (ECF No.
39) necessarily also fails and is DENIED as moot.

App. 24
Amended Complaint, no further leave to amend will be
permitted. The Clerk of Court is directed to close the
ﬁle.
IT IS SO ORDERED.
Dated: October 30, 2017
/s/ Morrison C. England, Jr.
MORRISON C. ENGLAND, JR.
UNITED STATES DISTRICT
JUDGE

App. 25
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
INSTITUTE FOR FREE
SPEECH, FKA Center for
Competitive Politics,
v.

No. 17-17403
D.C. No.
2:14-cv-00636-MCE-DB

Plaintiff-Appellant, Eastern District of
California, Sacramento

XAVIER BECERRA, in his ORDER
ofﬁcial capacity as Attorney (Filed Aug. 4, 2018)
General of the State of
California,
Defendant-Appellee
No judge has requested a vote to hear this case initially en banc within the time allowed by GO 5.2(a).
The petition for initial hearing en banc (Docket Entry
No. 6) is therefore denied.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Paul Keller
Deputy Clerk
Ninth Circuit Rule 27-7

App. 26
FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CENTER FOR
COMPETITIVE POLITICS,
Plaintiff-Appellant,
v.
KAMALA D. HARRIS, in
her ofﬁcial capacity as
Attorney General of
the State of California,

No. 14-15978
D.C. No.
2:14-cv-00636MCE-DAD
OPINION

Defendant-Appellee.
Appeal from the United States District Court
for the Eastern District of California
Morrison C. England, Jr., Chief District Judge, Presiding
Argued and Submitted
December 8, 2014—San Francisco California
Filed May 1, 2015
Before: A. Wallace Tashima and
Richard A. Paez, Circuit Judges, and
Gordon J. Quist, Senior District Judge.*
Opinion by Judge Paez
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

* The Honorable Gordon J. Quist, Senior District Judge for
the U.S. District Court for the Western District of Michigan, sitting by designation.

App. 27
COUNSEL
Allen J. Dickerson (argued), Center for Competitive Politics, Alexandria, Virginia; Alan Gura, Gura & Possessky,
PLLC, Alexandria, Virginia, for Plaintiff-Appellant.
Kamala Harris, California Attorney General, Alexandra Robert Gordon (argued), Deputy Attorney General,
San Francisco, California, for Defendant-Appellee.
Joseph Vanderhulst, ActRight Legal Foundation, Plainfield, Indiana, for Amici Curiae National Organization
for Marriage, Inc., and National Organization for Marriage Educational Trust Fund.
Bradley Benbrook and Stephen Duvernay, Benbrook
Law Group, PC, Sacramento, California, for Amicus
Curiae Charles M. Watkins.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

OPINION
PAEZ, Circuit Judge:
In order to solicit tax deductible contributions in
California, a non-proﬁt corporation or other organization must be registered with the state’s Registry of
Charitable Trusts. Cal. Gov. Code § 12585. To maintain
its registered status, an entity must ﬁle an annual report with the California Attorney General’s Ofﬁce, and
must include IRS Form 990 Schedule B. The Internal
Revenue Service (IRS) requires non-proﬁt educational
or charitable organizations registered under 26 U.S.C.
§ 501(c)(3) to disclose the names and contributions of
their “significant donors” (donors who have contributed

App. 28
more than $5,000 in a single year) on Form 990 Schedule B. The Center for Competitive Politics (CCP), a
non-proﬁt educational organization under § 501(c)(3),
brings this lawsuit under 42 U.S.C. § 1983, seeking to
enjoin the Attorney General from requiring it to ﬁle an
unredacted Form 990 Schedule B. CCP argues that disclosure of its major donors’ names violates the right of
free association guaranteed to CCP and its supporters
by the First Amendment.
CCP appeals the district court’s denial of CCP’s
motion for a preliminary injunction to prevent the Attorney General from enforcing the disclosure requirement. We have jurisdiction under 28 U.S.C. § 1292(a)(1),
and we afﬁrm.
I.
A.
CCP is a Virginia non-proﬁt corporation, recognized by the IRS as an educational organization under
§ 501(c)(3). CCP’s “mission is to promote and defend
the First Amendment rights of free political speech, assembly, association, and petition through research, education, and strategic litigation.” CCP supports itself
through ﬁnancial donations from contributors across
the United States, including California. CCP argues
that the disclosure requirement infringes its and its
supporters’ First Amendment right to freedom of association. CCP also argues that federal law preempts
California’s disclosure requirement.

App. 29
Defendant Kamala Harris, the Attorney General
of California, is the chief law enforcement ofﬁcer of the
State of California. See Cal. Const. art. 5, § 13. Furthermore, under the Supervision of Trustees and Fundraisers for Charitable Purposes Act (the Act), Cal. Gov’t
Code § 12580 et seq., the Attorney General also has
primary responsibility to supervise charitable trusts
and public beneﬁt corporations incorporated in or conducting business in California, and to protect charitable assets for their intended use. Cal. Gov’t Code
§§ 12598(a), 12581. The Act requires the Attorney General to maintain a registry of charitable corporations
and their trustees and trusts, and authorizes the Attorney General to obtain “whatever information, copies
of instruments, reports, and records are needed for the
establishment and maintenance of the register.” Cal.
Gov’t Code § 12584.
An organization must maintain membership in
the registry in order to solicit funds from California
residents. Cal. Gov’t Code § 12585. The Act requires
that corporations ﬁle periodic written reports, and requires the Attorney General to promulgate rules and
regulations specifying both the ﬁling procedures and
the contents of the reports. Cal. Gov’t Code § 12586(b),
Cal. Code Regs. tit. 11, § 300 et seq. (2014). One of the
regulations adopted by the Attorney General requires
that the periodic written reports include Form 990.1
1

California is not alone in requiring charitable organizations
to ﬁle an unredacted Form 990 Schedule B. At least Hawaii, Mississippi, and Kentucky share the same requirement. Haw. Rev.
Stat. Ann. § 467B-6.5 (2014); Ky. Rev. Stat. Ann. §§ 367.650-.670

App. 30
Cal. Code Regs. tit. 11, § 301 (2014). Although many
documents ﬁled in the registry are open to public inspection, see Cal. Code Regs. tit. 11, § 310, Form 990
Schedule B is conﬁdential, accessible only to in-house
staff and handled separately from non-confidential documents.
The Attorney General argues that there is a compelling law enforcement interest in the disclosure of
the names of signiﬁcant donors. She argues that such
information is necessary to determine whether a charity is actually engaged in a charitable purpose, or is
instead violating California law by engaging in selfdealing, improper loans, or other unfair business practices. See Cal. Corp. Code §§ 5233, 5236, 5227. At oral
argument, counsel elaborated and provided an example of how the Attorney General uses Form 990 Schedule B in order to enforce these laws: having signiﬁcant
donor information allows the Attorney General to determine when an organization has inﬂated its revenue
by overestimating the value of “in kind” donations.
Knowing the signiﬁcant donor’s identity allows her to
determine what the “in kind” donation actually was, as
well as its real value. Thus, having the donor’s information immediately available allows her to identify
suspicious behavior. She also argues that requiring unredacted versions of Form 990 Schedule B increases

(2014); Miss. Code Ann. § 79-11-507 (2014). According to Amicus
Charles Watkins, Florida and New York also require unredacted
versions of Form 990 Schedule B.

App. 31
her investigative efﬁciency and obviates the need for
expensive and burdensome audits.
B.
CCP has been a member of the registry since 2008.
Since its initial registration, CCP has ﬁled redacted
versions of Form 990 Schedule B, omitting the names
and addresses of its donors. In 2014, for the ﬁrst time,
the Attorney General required CCP to submit an unredacted Form 990 Schedule B. In response to this
demand, CCP ﬁled suit, alleging that the Attorney
General’s requirement that CCP ﬁle an unredacted
Form 990 Schedule B amounted to a compelled disclosure of its supporters’ identities that infringed CCP’s
and its supporters’ First Amendment rights to freedom
of association. CCP also alleged that a section of the
Internal Revenue Code, 26 U.S.C. § 6104, which restricts
disclosure of the information contained in Schedule B,
preempted the Attorney General’s requirement.
As noted above, the district court denied CCP’s
motion for a preliminary injunction, ruling that CCP
was unlikely to succeed on the merits of either of its
claims, and that, therefore, CCP could not show that it
would suffer irreparable harm or that the public interest weighed in favor of granting the relief it requested.
Ctr. for Competitive Politics v. Harris, No. 2:14–cv–
00636–MCE–DAD, 2014 WL 2002244 (E.D. Cal. May
14, 2014).

App. 32
II.
We review a district court’s ruling on a motion for
preliminary injunctive relief for abuse of discretion.
See FTC v. Enforma Natural Prods., 362 F.3d 1204,
1211-12 (9th Cir. 2004); Harris v. Bd. of Supervisors,
L.A. Cnty., 366 F.3d 754, 760 (9th Cir. 2004). We review
ﬁndings of fact for clear error and conclusions of law de
novo. See Indep. Living Ctr. of S. Cal., Inc. v. Shewry,
543 F.3d 1050, 1055 (9th Cir. 2008). Our review of a
denial of preliminary injunctive relief must be “limited
and deferential.” Harris, 366 F.3d at 760.
“A plaintiff seeking a preliminary injunction must
establish that he is likely to succeed on the merits, that
he is likely to suffer irreparable harm in the absence
of preliminary relief, that the balance of equities tips
in his favor, and that an injunction is in the public interest.” Winter v. NRDC, 555 U.S. 7, 20 (2008). A preliminary injunction is “an extraordinary remedy that
may only be awarded upon a clear showing that the
plaintiff is entitled to such relief.” Id. at 22 (citing Mazurek v. Armstrong, 520 U.S. 968, 972 (1997)). Thus,
CCP bears the heavy burden of making a “clear showing” that it was entitled to a preliminary injunction.
We apply exacting scrutiny in the context of First
Amendment challenges to disclosure requirements.
“Disclaimer and disclosure requirements may burden
the ability to speak, but they . . . do not prevent anyone
from speaking.” Citizens United v. FEC, 558 U.S. 310,
366 (2010) (internal citations and quotation marks omitted). Therefore, courts have “subjected these requirements

App. 33
to ‘exacting scrutiny,’ which requires a ‘substantial
relation’ between the disclosure requirement and a
‘sufﬁciently important’ governmental interest.” Id. at
366–67 (quoting Buckley v. Valeo, 424 U.S. 1 (1976)).2
Exacting scrutiny encompasses a balancing test. In order for a government action to survive exacting scrutiny, “the strength of the governmental interest must
reﬂect the seriousness of the actual burden on First
Amendment rights.” John Doe No. 1, 561 U.S. at 196
(quoting Davis v. FEC, 554 U.S. 724, 744 (2008)) (emphasis added).
III.
A.
CCP argues that the Attorney General’s disclosure
requirement is, in and of itself, injurious to CCP’s and
its supporters’ exercise of their First Amendment
rights to freedom of association. CCP further argues
that the Attorney General must have a compelling interest in the disclosure requirement, and that the requirement must be narrowly tailored in order to justify
2

Although most of the cases in which we and the Supreme
Court have applied exacting scrutiny arise in the electoral context, see John Doe No. 1 v. Reed, 561 U.S. 186, 196 (2010) (referring to long line of such precedent), we have also applied the
exacting scrutiny standard in the context of a licensing regime.
See Acorn Invs., Inc. v. City of Seattle, 887 F.2d 219 (9th Cir.
1989). Moreover, the foundational compelled disclosure case,
NAACP v. Ala. ex rel. Patterson, arose outside the electoral context. In that case, the NAACP challenged a discovery order (arising out of a contempt proceeding) that would have forced it to
reveal its membership lists. 357 U.S. 449 (1958).

App. 34
the First Amendment harm it causes. This is a novel
theory, but it is not supported by our case law or by
Supreme Court precedent.
In arguing that the disclosure requirement alone
constitutes signiﬁcant First Amendment injury, CCP
relies heavily on dicta in Buckley v. Valeo, in which the
Supreme Court stated that “compelled disclosure, in itself, can seriously infringe on privacy of association
and belief guaranteed by the First Amendment.” 424
U.S. at 64. Notably, the Court said “can” and not “always does.” Furthermore, in making that statement,
the Court cited a series of Civil Rights Era as-applied
cases in which the NAACP challenged compelled disclosure of its members’ identities at a time when many
NAACP members experienced violence or serious
threats of violence based on their membership in that
organization.3 Id. The Court went on to explain that
3

CCP also cites extensively to these cases; however, because
all of them are as-applied challenges involving the NAACP (which
had demonstrated that disclosure would harm its members),
these cases are all inapposite: Gibson v. Fla. Legislative Investigation Comm., 372 U.S. 539 (1963) (holding that the NAACP was
not required to comply with a subpoena and disclose membership
lists to a Florida state legislative committee investigating communist activity); NAACP v. Button, 371 U.S. 415 (1963) (upholding NAACP’s challenge to a Virginia statute barring the improper
solicitation of legal business, which the state had attempted to
use to prohibit the organization’s operation); Shelton v. Tucker,
364 U.S. 479 (1960) (striking down on First Amendment grounds
an Arkansas statute requiring public school teachers to disclose
all organizations to which they had belonged or contributed in
the past ﬁve years); Bates v. Little Rock, 361 U.S. 516 (1960) (invalidating an Arkansas local ordinance requiring disclosure of
membership lists on First Amendment grounds as applied to the

App. 35
“[t]he strict test established by NAACP v. Alabama is
necessary because compelled disclosure has the potential for substantially infringing the exercise of First
Amendment rights.” Id. at 66 (emphasis added). The
most logical conclusion to draw from these statements
and their context is that compelled disclosure, without
any additional harmful state action, can infringe First
Amendment rights when that disclosure leads to private discrimination against those whose identities
may be disclosed.
Of course, compelled disclosure can also infringe
First Amendment rights when the disclosure requirement is itself a form of harassment intended to chill
protected expression. Such was the case in Acorn Investments, Inc. v. City of Seattle, another opinion upon
which CCP bases its theory that compelled disclosure
alone constitutes First Amendment injury. In Acorn,
the plaintiff brought a First Amendment challenge
to Seattle’s licensing fee scheme and its concomitant
requirement that panoram businesses disclose the names
and addresses of their shareholders. 887 F.2d at 220.
Panorams, or “peep shows,” were a form of adult entertainment business strongly associated with criminal
activity. Id. at 222–24. Seattle’s disclosure requirement exclusively targeted the shareholders of panoram
NAACP, given the substantial record of the threats and harassment that members of the organization would experience as a result of disclosure); NAACP v. Alabama, 357 U.S. 449 (1958)
(holding that the NAACP was not required to comply with a discovery order requiring disclosure of its membership lists). In Shelton, while the NAACP was not a party, the primary plaintiff,
Shelton, was a member of the NAACP. 364 U.S. at 484.

App. 36
businesses, and the only justiﬁcation that the city advanced was “accountability.” Id. at 226. The plaintiff argued that the disclosure requirement was intended to
chill its protected expression, and, given the absence of
any reasonable justiﬁcation for the ordinance, we held
that it violated the First Amendment. Id. In so holding,
we found especially instructive and cited as indistinguishable a Seventh Circuit case, Genusa v. City of Peoria, 619 F.2d 1203 (7th Cir. 1980), in which “the court
concluded that there could be ‘no purpose other than
harassment in requiring the individual . . . stockholders to ﬁle separate statements or applications.’ ” Id.
(quoting Genusa, 619 F.2d at 1217). However, here,
there is no indication in the record that the Attorney
General’s disclosure requirement was adopted or is enforced in order to harass members of the registry in
general or CCP in particular. Thus, the concern animating the holdings of Acorn and Genusa does not apply here.
CCP is correct that the chilling risk inherent in
compelled disclosure triggers exacting scrutiny—“the
strict test established by NAACP v. Alabama,” Buckley,
424 U.S. at 66—and that, presented with a challenge
to a disclosure requirement, we must examine and balance the plaintiff ’s First Amendment injury against
the government’s interest. However, CCP is incorrect
when it argues that the compelled disclosure itself constitutes such an injury, and when it suggests that we
must weigh that injury when applying exacting scrutiny. Instead, the Supreme Court has made it clear that
we must balance the “seriousness of the actual burden”

App. 37
on a plaintiff ’s First Amendment rights. John Doe No.
1, 561 U.S. at 196 (emphasis added); Chula Vista Citizens for Jobs & Fair Competition v. Norris, No. 12–
55726 ___ F.3d ___ 2015 WL 1499334 at *13 (9th Cir.
Apr. 3, 2015) (en banc) (applying this standard in evaluating a First Amendment challenge to a disclosure requirement under exacting scrutiny). Here, CCP has
not shown any “actual burden” on its freedom of association.
B.
CCP’s creative formulation, however, does affect
the scope of its challenge. In John Doe No. 1, signatories of a referendum petition challenged the Washington Public Records Act (PRA),4 which permitted public
inspection of such petitions. 561 U.S. at 191. The plaintiffs sought to prevent the disclosure of the names of
those who had signed a referendum petition to challenge and put to a popular vote a Washington state law
that had extended beneﬁts to same-sex couples. Id. The
complaint charged both that the PRA was unconstitutional as to the referendum petition to overturn the
same-sex beneﬁts law and as to referendum petitions
generally. Id. at 194. Thus, there was some dispute as
to whether their challenge was best construed as an
as-applied or as a facial challenge. Id. The Court explained that “[t]he label is not what matters.” Id. Rather, because the “plaintiffs’ claim and the relief that
would follow . . . reach[ed] beyond the particular
4

Wash. Rev. Code § 42.56.001 et seq.

App. 38
circumstances of these plaintiffs,” they were required
to “satisfy our standards for a facial challenge to the
extent of that reach.” Id.
In formulating its claim such that the disclosure
requirement itself is the source of its alleged First
Amendment injury, CCP’s claim “is not limited to [its]
particular case, but challenges application of the law
more broadly to all [registry submissions].” Id. Were
we to hold that the disclosure requirement at issue
here itself infringes CCP’s First Amendment rights,
then it would necessarily also infringe the rights of all
organizations subject to it. Even though CCP only
seeks to enjoin the Attorney General from enforcing
the disclosure requirement against itself, the Attorney
General would be hard-pressed to continue to enforce
an unconstitutional requirement against any other
member of the registry.5 Therefore, because “the relief
that would follow . . . reach[es] beyond the particular
circumstances of th[is] plaintif[f,] [CCP’s claim] must
. . . satisfy our standards for a facial challenge to the
extent of that reach.” Id. (citing United States v. Stevens, 559 U.S. 460, 472–73 (2010)).
“Which standard applies in a typical [facial challenge] is a matter of dispute that we need not and do
not address. . . .” Stevens, 559 U.S. at 472. The Supreme
Court has at different times required plaintiffs bringing facial challenges to show “that no set of circumstances exists under which [the challenged law] would
5

CCP conceded at oral argument that its challenge is best
understood as a facial challenge.

App. 39
be valid,” United States v. Salerno, 481 U.S. 739, 745
(1987), or that it lacks any “plainly legitimate sweep,”
Washington v. Glucksberg, 521 U.S. 702, 740, n. 7
(1997) (Stevens, J., concurring) (internal quotation
marks omitted). Alternatively, in the First Amendment
context, the Court has sometimes employed a different
standard to evaluate facial overbreadth challenges,
“whereby a law may be invalidated as overbroad if ‘a
substantial number of its applications are unconstitutional, judged in relation to the statute’s plainly legitimate sweep.’ ” Stevens, 559 U.S. at 473 (quoting Wash.
State Grange v. Wash. State Republican Party, 552 U.S.
442, 449, n. 6 (2008)).
The least demanding of these standards is that of
the First Amendment facial overbreadth challenge. Because CCP cannot show that the regulation fails exacting scrutiny in a “substantial” number of cases, “judged
in relation to [the disclosure requirement’s] plainly legitimate sweep,” we need not decide whether it could
meet the more demanding standards of Salerno and
Glucksberg.
C.
Although not for the reasons that CCP posits,
Buckley v. Valeo is instructive for assessing CCP’s facial challenge. In Buckley, the plaintiffs challenged
the disclosure requirements of the Federal Election
Campaign Act6 as overbroad on two grounds. 424 U.S.
6

Then codiﬁed at 2 U.S.C. § 431 et seq., now at 52 U.S.C.
§ 30101 et seq.

App. 40
at 60–61. The ﬁrst ground was that the disclosure requirement applied to minor party members, such
as members of the Socialist Labor Party, who might
face harassment or threats as a result of the disclosure
of their names. Id. The plaintiffs sought a blanket exemption for minor parties. The second ground of the
Buckley plaintiffs’ challenge was that the thresholds
triggering disclosure were too low, because the requirement attached to any donation of $100 or more (with
additional reporting requirements to a Committee,
though not to the public, for donations over $10). Id.
After applying exacting scrutiny, the Buckley
Court rejected the plaintiffs’ minor party challenge because “no appellant [had] tendered record evidence of
the sort proffered in NAACP v. Alabama,” and so had
failed to make the “[r]equisite [f ]actual [s]howing.” Id.
at 69–71. Where the record evidence constituted “[a]t
best . . . the testimony of several minor-party ofﬁcials
that one or two persons refused to make contributions
because of the possibility of disclosure . . . the substantial public interest in disclosure identiﬁed by the legislative history of this Act outweighs the harm generally
alleged.” Id. at 71–72. The Court, however, left open the
possibility that if a minor party plaintiff could show “a
reasonable probability that the compelled disclosure
of a party’s contributors’ names will subject them to
threats, harassment, or reprisals from either Government ofﬁcials or private parties,” then it could succeed
on an as-applied challenge. Id. at 74. Thus, even where,
unlike here, the plaintiffs adduced some evidence that

App. 41
their participation would be chilled, the Buckley Court
rejected a facial challenge.
Further undermining CCP’s argument, the Buckley Court also rejected the plaintiffs’ “contention, based
on alleged overbreadth, . . . that the monetary thresholds in the record-keeping and reporting provisions
lack[ed] a substantial nexus with the claimed governmental interests, for the amounts involved [were] too
low.” Id. at 82. The Court noted that they were “indeed
low,” but concluded that it “[could not] say, on this bare
record, that the limits designated [were] wholly without rationality,” because they “serve[d] informational
functions,” and “facilitate[d] enforcement” of the contribution limits and disclosure requirements. Id. at 83.
Thus, the Buckley Court rejected the plaintiffs’ overbreadth challenge both with respect to minor parties
and the donation thresholds.
Engaging in the same balancing that the Buckley
Court undertook, we examine the claims and interests
the parties assert here. In contrast to the Buckley
plaintiffs, CCP does not claim and produces no evidence to suggest that their signiﬁcant donors would
experience threats, harassment, or other potentially
chilling conduct as a result of the Attorney General’s
disclosure requirement.7 CCP has not demonstrated

7

The minor parties in Buckley feared harassment because
they advocated unpopular positions. CCP has not alleged that its
supporters would face a similar backlash. However, amicus National Organization for Marriage contends that, like the minor
party donors and members in Buckley, its signiﬁcant donors could

App. 42
any “actual burden,” John Doe No. 1, 561 U.S. at 196,
on its or its supporters’ First Amendment rights. As
discussed supra, contrary to CCP’s contentions, no case
has ever held or implied that a disclosure requirement
in and of itself constitutes First Amendment injury.8
Furthermore, unlike in John Doe No. 1 or in other
cases requiring the disclosure of the names of petition
signatories, in this case, the disclosure would not be
public. The Attorney General keeps Form 990 Schedule
B conﬁdential. Although it is certainly true that nonpublic disclosures can still chill protected activity
where a plaintiff fears the reprisals of a government
entity, CCP has not alleged any such fear here. CCP
instead argues that the Attorney General’s systems for
preserving conﬁdentiality are not secure, and that its
signiﬁcant donors’ names might be inadvertently accessed or released. Such arguments are speculative,
and do not constitute evidence that would support
face retaliatory action if their names were ever released to the
public.
8
Contrary to CCP’s contention, Talley v. California, 362 U.S.
60 (1960), is not such a case. In Talley, the Supreme Court struck
down a law that outlawed the distribution of hand-bills that did
not identify their authors. Id. at 64. In so doing, the Court did not
explicitly apply exacting scrutiny, though it cited NAACP v. Alabama and Bates. Id. at 65. The basis for the Court’s holding was
the historic, important role that anonymous pamphleteering has
had in furthering democratic ideals. Id. at 64 (“There can be no
doubt that such an identiﬁcation requirement would tend to restrict freedom to distribute information and thereby freedom of
expression . . . Anonymous pamphlets, leaﬂets, brochures and
even books have played an important role in the progress of mankind.”). Thus, in that case, the Court was certain of the First
Amendment harm that the ordinance imposed.

App. 43
CCP’s claim that disclosing its donors to the Attorney
General for her conﬁdential use would chill its donors’
participation.9 See United States v. Harriss, 347 U.S.
612, 626 (1954).10
On the other side of the scale, as CCP concedes,
the Attorney General has a compelling interest in enforcing the laws of California. CCP does not contest
9

CCP also argues that only an informal policy prevents the
Attorney General from publishing the forms and requires her to
take appropriate measures to ensure the forms stay conﬁdential.
However, where a record is exempt from public disclosure under
federal law, as is Form 990 Schedule B, it is also exempt from
public inspection under the California Public Records Act. Cal.
Gov’t Code § 6254(k) (2015). Thus, it appears doubtful that the
Attorney General would ever be required to make Form 990
Schedule B publicly available. Moreover, while the exemption under § 6254(k) is permissive, and not mandatory, Marken v. Santa
Monica-Malibu Uniﬁed Sch. Dist., 136 Cal. Rptr. 3d 395, 405 (Ct.
App. 2012), where public disclosure is prohibited under state or
federal law, the responsible California agency is also prohibited
from public disclosure. See Cal. Gov’t Code § 6254(f) (“This section
shall not prevent any agency from opening its records concerning
the administration of the agency to public inspection, unless disclosure is otherwise prohibited by law.”). As public disclosure (distinct from disclosure to the Attorney General) of signiﬁcant donor
information is not authorized by federal law, it is likely not authorized by California law, either. However, because CCP has not
provided any evidence that even public disclosure would chill the
First Amendment activities of its signiﬁcant donors, the potential
for a future change in the Attorney General’s disclosure policy
does not aid CCP in making its facial challenge.
10
In Harriss, the Supreme Court rejected a First Amendment
challenge to an act imposing disclosure requirements on lobbyists,
where plaintiffs presented “[h]ypothetical borderline situations”
where speech might be chilled, because “[t]he hazard of such restraint is too remote” to require striking down an otherwise valid
statute.

App. 44
that the Attorney General has the power to require disclosure of signiﬁcant donor information as a part of her
general subpoena power. Thus, the disclosure regulation has a “plainly legitimate sweep.” Stevens, 559 U.S.
at 473. CCP argues instead that the disclosure requirement does not bear a substantial enough relationship
to the interest that the Attorney General has asserted
in the disclosure, and that the Attorney General should
be permitted only to demand the names of signiﬁcant
donors if she issues a subpoena. CCP’s argument that
the disclosure requirement exceeds the scope of the
Attorney General’s subpoena power is similar to the
Buckley plaintiffs’ argument that the low monetary
thresholds exceeded the scope of Congress’s legitimate
regulation.
Like the Buckley Court, we reject this argument,
especially in the context of a facial challenge. The
Attorney General has provided justiﬁcations for employing a disclosure requirement instead of issuing
subpoenas. She argues that having immediate access
to Form 990 Schedule B increases her investigative efﬁciency, and that reviewing signiﬁcant donor information can ﬂag suspicious activity. The reasons that
the Attorney General has asserted for the disclosure
requirement, unlike those the City of Seattle put forth
in Acorn, are not “wholly without rationality.” See
Buckley, 424 U.S. at 83. Faced with the Attorney General’s “unrebutted arguments that only modest burdens attend the disclosure of a typical [Form 990
Schedule B],” we reject CCP’s “broad challenge,” John
Doe No. 1, 561 U.S. at 201. We conclude that the disclosure requirement bears a “substantial relation” to a

App. 45
“sufﬁciently important” government interest. See Citizens United, 558 U.S. at 366 (internal citations omitted).
However, as the Supreme Court did in Buckley and
John Doe No. 1, we leave open the possibility that CCP
could show “a reasonable probability that the compelled disclosure of [its] contributors’ names will subject them to threats, harassment, or reprisals from
either Government ofﬁcials or private parties” that
would warrant relief on an as-applied challenge. See
McConnell v. FEC, 540 U.S. 93, 199 (2003) (rejecting a
facial challenge, but leaving open the possibility of a
future as-applied challenge).
In sum, CCP’s First Amendment facial challenge
to the Attorney General’s disclosure requirement fails
exacting scrutiny.
IV.
CCP also contends that federal tax law preempts
the Attorney General’s disclosure requirement. CCP
argues that Congress intended to protect the privacy
of the donor information of non-proﬁt organizations
from all public disclosure when it added 26 U.S.C.
§ 6104, part of the Pension Protection Act of 2006, and
that, therefore, permitting state attorneys general to
require this information from non-proﬁt organizations
registered under § 501(c)(3) would conﬂict with that
purpose. CCP’s argument is unavailing.
Federal law is supreme and Congress can certainly preempt a state’s authority. However, principles

App. 46
of federalism dictate that we employ a strong presumption against preemption. Arizona v. United States, 132
S. Ct. 2492, 2500 (2012). Therefore, federal law will
only preempt state law if such preemption was “the
clear and manifest purpose of Congress.” Id. at 2501.
Congress can express that intent explicitly, or the intent can be inferred when a state law irreconcilably
conﬂicts with a federal law. Id. Alternatively, “the intent to displace state law altogether can be inferred”
when the federal government has established a legislative framework “so pervasive that Congress left no
room for states to supplement it.” Id. (quoting Rice v.
Santa Fe Elevator Corp., 331 U.S. 218, 230 (1947)). A
state law can be in conﬂict with a federal law when the
state law “stands as an obstacle to the accomplishment
and execution of the full purposes and objectives of
Congress.” Id.; see also Barnett Bank of Marion Cnty.
N.A. v. Nelson, 517 U.S. 25, 31 (1996) (holding that such
an obstacle can arise even where the two laws are not
directly in conﬂict).
CCP argues that 26 U.S.C. § 6104(c)(3) expressly
preempts the Attorney General’s disclosure requirement. That section provides:
Upon written request by an appropriate State
ofﬁcer, the Secretary may make available for
inspection or disclosure returns and return information of any organization described in
section 501(c) (other than organizations described in paragraph (1) or (3) thereof ) for
the purpose of, and only to the extent necessary in, the administration of State laws

App. 47
regulating the solicitation or administration
of the charitable funds or charitable assets of
such organizations.
(emphasis added). CCP reads this language to ban
the Secretary from sharing the tax information of
§ 501(c)(3) organizations with state attorneys general.
The language is better construed as a limited grant of
authority than as a prohibition. However, even if CCP’s
reading were accurate, a statute restricting the disclosures that the Commissioner of the IRS may make
does not expressly preempt the authority of state attorneys general to require such disclosures directly
from the non-proﬁt organizations they are tasked with
regulating.
CCP further argues that the Attorney General’s
disclosure requirement conﬂicts with the purpose of
§ 6104, but neither of the two subsections of § 6104
upon which CCP relies can support its argument. Neither subsection indicates that Congress sought to regulate states’ access to this information for the purposes
of enforcing their laws, or that Congress sought to regulate the actions of any entity other than the IRS. The
ﬁrst subsection allows for the public availability of the
tax returns of certain organizations and trusts, but
goes on to qualify that “[n]othing in this subsection
shall authorize the Secretary to disclose the name or
address of any contributor to any organization or trust.”
26 U.S.C. § 6104(b) (emphasis added). The second subsection lays out disclosure requirements for § 501(c)(3)
organizations generally, and then provides an exception to those requirements, such that they “shall not

App. 48
require the disclosure of the name or address of any
contributor to the organization.” Id. § 6104(d)(3)(A).
These subsections may support an argument that
Congress sought to regulate the disclosures that the
IRS may make, but they do not broadly prohibit other
government entities from seeking that information directly from the organization. Nor do they create a pervasive scheme of privacy protections. Rather, these
subsections represent exceptions to a general rule of
disclosure. Thus, these subsections do not so clearly
manifest the purpose of Congress that we could infer
from them that Congress intended to bar state attorneys general from requesting the information contained in Form 990 Schedule B from entities like
CCP.
The district court relied on our opinion in Stokwitz
v. United States, 831 F.2d 893 (9th Cir. 1987), in holding that CCP was unlikely to succeed on its preemption
argument. In that case, an attorney for the U.S. Navy
was charged with misconduct and his personal tax returns were seized. Id. at 893. He argued that 26 U.S.C.
§ 6103, regulating public disclosure of such documents,
forbade their use in the proceedings against him. Id. at
894. We disagreed: “[c]ontrary to appellant’s contention, there is no indication in either the language of
section 6103 or its legislative history that Congress
intended to enact a general prohibition against public
disclosure of tax information.” Id. at 896. Instead, the
legislative history of the section revealed that “Congress’s overriding purpose was to curtail loose disclosure practices by the IRS.” Id. at 894. Here, since

App. 49
nothing in the legislative history of § 6104 suggested
that its purpose was in any way different from that of
§ 6103, the district court concluded that the Attorney
General’s disclosure requirement was likewise not
preempted.
While CCP is correct that Congress added § 6104
thirty years after § 6103, and that, therefore, Congress’s intent may have differed, our opinion in Stokwitz
is nevertheless instructive. The very legislative history
to which CCP directs us describes the operation of sections 6103 and 6104 in tandem. See Staff of the Joint
Committee on Taxation, 109th Cong., Technical Explanation of H.R. 4, the “Pension Protection Act of 2006”
at 327-29 (Comm. Print 2006). Nothing in the legislative history suggests that Congress sought to extend
the regulatory scheme it imposed on the IRS with § 6103
to other entities when it added § 6104. Moreover, when
two sections operate together, and when Congress
clearly sought to regulate the actions of a particular
entity with one section, it is not unreasonable to infer
that Congress sought to regulate the same entity with
the other. Therefore, Stokwitz supports our conclusion
that § 6104, like § 6103, is intended to regulate the
IRS, and not to ban all means of accessing donor information.
Section 6104 does not so clearly manifest the purpose of Congress that we could infer from it that Congress intended to bar state attorneys general from
requesting the information contained in Form 990
Schedule B. See Arizona, 132 S. Ct. at 2501. CCP’s preemption claim must fail.

App. 50
V.
In order to prevail on a motion for a preliminary
injunction, a plaintiff must show a likelihood of success
on the merits and that irreparable harm is not only
possible, but likely, in the absence of injunctive relief.
Winter, 555 U.S. at 20. CCP has not shown a likelihood
of success on the merits. Because it is not likely that
the Attorney General’s disclosure requirement injures
CCP’s First Amendment rights, or that it is preempted
by federal law, it is not likely that CCP will suffer irreparable harm from enforcement of the requirement.
Thus, CCP cannot meet the standard established by
Winter.
For the foregoing reasons, the district court’s denial of CCP’s motion for a preliminary injunction is
AFFIRMED.

App. 51
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
CENTER FOR
COMPETITIVE POLITICS,
Plaintiff,
v.
KAMALA HARRIS,

No. 2:14-cv-00636MCE-DAD
MEMORANDUM
AND ORDER
(Filed May 14, 2014)

Defendant.
On March 7, 2014, Plaintiff Center for Competitive Politics (“Plaintiff ’) ﬁled a Complaint for Declaratory and Injunctive Relief against Defendant Kamala
Harris in her ofﬁcial capacity as Attorney General of
the State of California (“Defendant”). Compl., ECF No.
1. Plaintiff then ﬁled a motion for a preliminary injunction seeking to enjoin Defendant from requiring an unredacted copy of Plaintiff ’s IRS Form 990 Schedule B
as a condition of soliciting funds in California. ECF No.
9. Defendant opposed the Motion, ECF No. 10, and the
Court held a hearing on the Motion on April 17, 2014.
At the hearing, the Court took the Motion under submission; this written order follows. For the following
reasons, Plaintiff ’s Motion for a Preliminary Injunction, ECF No. 9, is DENIED.

App. 52
BACKGROUND1
Plaintiff is a Virginia nonproﬁt corporation recognized by the Internal Revenue Service as a § 501(c)(3)
educational organization. To support its activities, Plaintiff solicits charitable contributions nationwide. In order to legally solicit tax-deductible contributions in
California, an entity must be registered with the state’s
Registry of Charitable Trusts (“Registry”), which is administered by California’s Department of Justice. To
maintain membership in the Registry, nonproﬁt corporations must ﬁle annual periodic written reports with
the state Attorney General, which include the Annual
Registration Renewal Fee Report as well as the Internal Revenue Service Form 990. Form 990 has a supplement, Schedule B, which lists the names and addresses
of an organization’s contributors.2
Plaintiff has been a member of the Registry since
2008. On January 9, 2014, Plaintiff ﬁled its Annual
Registration Renewal Fee Report with Defendant, including a copy of its Form 990 and a redacted version
of its Schedule B omitting the names and addresses
of its contributors. Plaintiff subsequently received a
1

The facts are taken, often verbatim, from Plaintiff’s Complaint, ECF No. 1, and Motion, ECF No. 9, unless stated otherwise.
2
To reduce the reporting burden on ﬁlers, Defendant
adopted IRS Form 990 as the primary reporting document for
charitable entities required to ﬁle annual reports with the Registry. Opp’n, ECF No. 10 at 11 (citing Cal. Code Regs. tit. 11, § 301).
The Schedule B ﬁled by public charities is treated as a conﬁdential document and is not made available for public viewing. See
id.; ECF No. 10-8 at 2-3.

App. 53
letter from Defendant dated February 6, 2014 (“Letter”). See ECF No. 1-1. In the Letter, Defendant
acknowledged receipt of Plaintiff ’s periodic written
report, but stated that “[t]he ﬁling is incomplete because the copy of [its] Schedule B, Schedule of Contributors, does not include the names and addresses of
contributors.” Id. (emphasis omitted). The Letter states
that “[t]he Registry retains Schedule B as a conﬁdential record for IRS Form 990 and 990-EZ ﬁlers” and requires that Plaintiff must “[w]ithin 30 days of the date
of this letter . . . submit a complete copy of Schedule B,
Schedule of Contributors, for the ﬁscal year noted
above, as ﬁled with the Internal Revenue Service.” Id.
(emphasis omitted).
Plaintiff seeks to enjoin Defendant from requiring
an unredacted copy of its IRS Form 990 Schedule B as
a condition of soliciting funds in California. Plaintiff
argues that Defendant’s demand is preempted by federal law and that it unconstitutionally infringes upon
the freedom of association. Mot., ECF No. 9.
STANDARD
A preliminary injunction is an extraordinary remedy, and the moving party has the burden of proving
the propriety of such a remedy by clear and convincing
evidence. See Granny Goose Foods, Inc. v. Teamsters,
415 U.S. 423, 442 (1974). The party requesting preliminary injunctive relief must show that “he is likely to
succeed on the merits, that he is likely to suffer irreparable harm in the absence of preliminary relief, that

App. 54
the balance of equities tips in his favor, and that an
injunction is in the public interest.” Winter v. Natural
Resources Defense Council, 555 U.S. 7, 20 (2008); Stormans, Inc. v. Selecky, 586 F.3d 1109, 1127 (9th Cir.
2009) (quoting Winter). To grant preliminary injunctive relief, a court must ﬁnd that “a certain threshold
showing is made on each factor.” Leiva–Perez v. Holder,
640 F.3d 962, 966 (9th Cir. 2011).
Alternatively, under the so-called sliding scale
approach, as long as the Plaintiffs demonstrate the
requisite likelihood of irreparable harm and show that
an injunction is in the public interest, a preliminary
injunction can still issue so long as serious questions
going to the merits are raised and the balance of hardships tips sharply in Plaintiffs’ favor. Alliance for Wild
Rockies v. Cottrell, 632 F.3d 1127, 1131-36 (9th Cir.
2011) (concluding that the “serious questions” version
of the sliding scale test for preliminary injunctions remains viable after Winter).
These two alternatives represent two points on a
sliding scale, pursuant to which the required degree of
irreparable harm increases or decreases in inverse correlation to the probability of success on the merits. Roe
v. Anderson, 134 F.3d 1400, 1402 (9th Cir. 1998); United
States v. Nutri-cology, Inc., 982 F.2d 1374, 1376 (9th
Cir. 1985). Under either formulation of the test for
granting a preliminary injunction, however, the moving party must demonstrate a signiﬁcant threat of irreparable injury. Oakland Tribune, Inc. v. Chronicle
Publ’g. Co., 762 F.2d 1374 (9th Cir. 1985).

App. 55
ANALYSIS
A. Likelihood of Success on the Merits
Through this action, Plaintiff seeks to block Defendant from requiring that it provide an unredacted
copy of Plaintiff ’s IRS Form 990 Schedule B to Defendant as a condition of soliciting funds in California.
Plaintiff asserts that it will prevail on the merits on
two separate grounds. First, Plaintiff argues that the
Internal Revenue Code shields the information that
Defendant seeks and that Defendant’s demand is
therefore preempted by federal law. Second, Plaintiff
contends that Defendant’s demand unconstitutionally
infringes upon its freedom of association. The Court
will address each argument in turn.
1. Federal Law
As discussed above, Plaintiff ﬁles tax information
on Form 990 with the IRS. While some of Plaintiff ’s tax
return information is available to the public, the IRS
does not publically disclose the names or addresses of
any of Plaintiff ’s contributors. See 26 U.S.C. § 6104(b),
(d)(3) (providing that the public inspection copy of 501(c)(3)
organization’s tax information “shall not require the
disclosure of the name or address of any contributor to
the organization”). Federal law also prevents the Secretary of the Treasury from releasing the names and
addresses of contributors to section 501(c)(3) organizations to state agencies. See 26 U.S.C. § 6104(c)(3)
(“Upon written request by an appropriate State ofﬁcer,
the Secretary may make available for inspection or

App. 56
disclosure returns and return information of any organization described in section 501(c) (other than organizations described in paragraph (1) or (3) thereof )
for the purpose of, and only to the extent necessary
in, the administration of State laws regulating the
solicitation or administration of the charitable funds
or charitable assets of such organizations.”) (emphasis
added). Through this statutory language, Plaintiff argues that federal law preempts Defendant’s request for
a copy of its unredacted Schedule B form.
The Supreme Court has articulated two cornerstones of its preemption jurisprudence. “First, the purpose of Congress is the ultimate touchstone in every
preemption case. Second, in all pre-emption cases, and
particularly in those in which Congress has legislated
in a ﬁeld which the States have traditionally occupied,
we start with the assumption that the historic police
powers of the States were not to be superseded by the
Federal Act unless that was the clear and manifest
purpose of Congress.” Wyeth v. Levine, 555 U.S. 555,
565 (2009) (internal citations and quotations omitted).
“Courts are reluctant to infer preemption, and it is the
burden of the party claiming that Congress intended
to preempt state law to prove it.” Viva! Intl Voice For
Animals v. Adidas Promotional Retail Operations, Inc.,
162 P.3d 569, 572 (Cal. 2007) (internal citations omitted). Here, Plaintiff contends that because Defendant’s
actions contravene the clear intent of Congress, Defendant’s actions are invalid through express preemption, ﬁeld preemption, and conﬂict preemption.

App. 57
2. Express Preemption
Relying on 26 U.S.C. § 6104, Plaintiff contends
that the Internal Revenue Code (“IRC”) “expressly preempts a state attorney general from compelling Plaintiff to hand over its Schedule B as ﬁled.” Mot., ECF No.
9-1 at 13-14. “[E]xpress preemption arises when Congress deﬁnes explicitly the extent to which its enactments pre-empt state law . . . . and when Congress has
made its intent known through explicit statutory language, the courts’ task is an easy one.” Viva! Intl Voice
For Animals, 162 P.3d at 571-72.
Plaintiff ’s argument is unsupported by the text of
the IRC. The IRC only bars the IRS from providing the
requested Schedule B to state agencies, it does not address whether a state ofﬁcial, such as Defendant, may
request such information directly from an organization
such as Plaintiff. Cf. Stokwitz v. United States, 831
F.2d 893, 896 (9th Cir. 1987) (noting that “there is no
indication in either the language of section 6103 or its
legislative history that Congress intended to enact a
general prohibition against public disclosure of tax information”). Therefore, because Congress did not express any intent to prevent state agencies from making
requests for tax information such as Defendant’s directly from 501(c)(3) organizations in the language of
Section 6104, or any other section of the IRC, Plaintiff
may not rely on express preemption.

App. 58
3. Field and Conflict Preemption
Plaintiff also argues that Defendant’s action is
preempted because “Congress has well occupied the
ﬁeld regarding the disclosure of federal tax returns”
and that “the [Defendant’s] actions stand[ ] as an obstacle to the accomplishment and execution of the full
purposes and objectives of Congress.” Mot., ECF No. 91 at 15-16 (internal citation omitted). “Even without an
express provision for preemption, . . . [w]hen Congress
intends federal law to ‘occupy the ﬁeld,’ state law in
that area is preempted. And even if Congress has not
occupied the ﬁeld, state law is naturally preempted to
the extent of any conﬂict with a federal statute.”
Crosby, 530 U.S. 363, 372-73 (2000).
Plaintiff asserts that because the “IRC comprehensively regulates how conﬁdential tax return information must be treated—and assesses signiﬁcant
sanctions for violations[,]” Defendant’s action, “if fully
implemented, would interfere with Congress’s occupation of the ﬁeld.” ECF No. 9-1 at 15-16. Plaintiff points
only to the statutory language of the IRC, speciﬁcally
sections 6103 and 6104, to support its contention. See
ECF No. 9-1 at 15. An examination of the IRC’s legislative history reveals that Congress’s intent in enacting “the elaborate disclosure procedures of section
6103” was not directed toward preventing actions such
as Defendant’s, but instead to “[control] the distribution of information the IRS receives directly from the
taxpayer-information the taxpayer ﬁles under compulsion and the threat of criminal penalties.” Stokwitz,

App. 59
831 F.2d at 895 (citing the Congressional Record). The
Ninth Circuit explained that
[t]he legislative history of section 6103 indicates Congress’s overriding purpose was to
curtail loose disclosure practices by the IRS.
Congress was concerned that IRS had become
a “lending library” to other government agencies of tax information ﬁled with the IRS, and
feared the public’s conﬁdence in the privacy of
returns ﬁled with IRS would suffer. The Senate Report explained: “[T]he IRS probably has
more information about more people than any
other agency in this country. Consequently, almost every other agency that has a need for
information . . . logically seeks it from the
IRS.” Congress also sought to end “the highly
publicized attempts to use the Internal Revenue Service for political purposes” involving
delivery of tax returns to the White House by
the IRS; and to regulate “the ﬂow of tax data
from the IRS to State Governments.” In short,
section 6103 was aimed at curtailing abuse by
government agencies of information ﬁled with
the IRS. At the same time, Congress realized
tax information on ﬁle with the IRS was often
important to other government agencies. Revised section 6103 represents a legislative
balancing of the right of taxpayers to the privacy of tax information in the hands of the
IRS and the legitimate needs of others for access to that information.
Stokwitz, 831 F.2d at 894-95 (9th Cir. 1987) (internal
citations and quotations omitted) (emphasis added).

App. 60
The Ninth Circuit also noted that “the statutory deﬁnitions of ‘return’ and ‘return information’ to which the
entire statute relates, conﬁne the statute’s coverage to
information that is passed through the IRS,” not information provided by a taxpayer to another entity. Id. at
895-96 (emphasis added). Thus, it is clear that Congress’s intent in regulating how conﬁdential tax return
information must be treated was to restrict how tax information is obtained from the IRS, not from taxpayers
directly.
Nonetheless, Plaintiff argues that “[Defendant’s]
interpretation [of section § 6104] would render [it] devoid of any practical effect [and that] Congress’s purpose would be plainly frustrated if state ofﬁcials
regulating charitable solicitations could unilaterally
compel Schedule B information from tax-exempt organizations.” Reply, ECF No. 11 at 6-7. However, in
Stokwitz, the Ninth Circuit rejected a similar argument. In that case, the appellant argued that the “purpose of the protection afforded tax data by sections
6103 and 7213 ‘would be meaningless if such protection were not extended to copies of tax returns and to
the pertinent data and information in the hands of the
taxpayer.’ ” Stokwitz, 831 F.2d at 896. The Ninth Circuit rejected that contention noting that “[i]t is quite
clear . . . that this was not Congress’s view when it revised section 6103.” Id. Citing the Senate report, the
Court concluded that Congress “disclaimed any intention ‘to limit the right of an agency (or other party) to
obtain returns or return information directly from the
taxpayer.’ ” Id. Therefore, there is little doubt that

App. 61
Congress’s intent was to regulate the IRS, not state
agencies.
Plaintiff ’s attempts to distinguish Stokwitz are
unavailing. Although the provision in question, namely
section § 6104, was added in 2006, there is no legislative record to suggest that Congress intended to deviate from its intent as expressed in Stokwitz. Absent
any evidence that Congress intended to prevent state
Attorneys General from obtaining the requested information directly from organizations, Plaintiff cannot
meet its burden in showing that it is likely to succeed
on the merits of its preemption argument. Therefore, a
preliminary injunction on the basis of preemption is
not warranted.
4. Freedom of Association
Plaintiff also argues that it will prevail on the
merits because Defendant’s demand unconstitutionally infringes upon its First Amendment freedom of association. Speciﬁcally, Plaintiff objects to Defendant’s
demand because “[f ]inancial support is the lifeblood of
organizations engaged in public debate” and because
Defendant’s action “threatens to curtail that necessary
supply of resources.” Mot., ECF No. 9-1 at 18. Plaintiff
argues that while “a government may compel certain
disclosures in certain circumstances[,] . . . associational
freedom may [only] be limited, so long as the state does
so narrowly and speciﬁcally, in pursuit of an obvious
and compelling government interest.” Id. at 17. Thus,
Plaintiff argues that because “the Attorney General

App. 62
has provided no particularized rationale for obtaining
CCP’s donor information[,]” Defendant’s request violates the First Amendment. Reply, ECF No. 11 at 11.
However, in the Ninth Circuit, courts ﬁrst address
whether a plaintiff has presented a prima facie showing of arguable first amendment infringement. See Perry
v. Schwarzenegger, 591 F.3d 1126, 1140 (9th Cir. 2009).
Such a showing requires Plaintiff to demonstrate that
Defendant’s action “will result in (1) harassment, membership withdrawal, or discouragement of new members, or (2) other consequences which objectively suggest
an impact on, or ‘chilling’ of, the members’ associational rights.” Brock v. Local 375, Plumbers Int’l Union
of Am., AFL-CIO, 860 F.2d 346, 350 (9th Cir. 1988) (citations omitted); see also Dole v. Serv. Employees Union, AFL–CIO, Local 280, 950 F.2d 1456, 1459–61 (9th
Cir.1991). “This must be shown by presentation of objective and articulable facts, which go beyond broad allegations or subjective fears.” Van Fossen v. United
States, CV-F-93-137-DLB, 1993 WL 655008 at *2 (E.D.
Cal. Dec. 27, 1993) (citing Brock, 860 F.2d at 350). “A
merely subjective fear of future reprisals is an insufﬁcient showing of infringement of associational rights.”
Id. (citing Buckley v. Valeo, 424 U.S. 1, 71-72 (1976)). If
Plaintiffs “can make the necessary prima facie showing, the evidentiary burden will then shift to” Defendant. Brock, 860 F.2d at 350.
Rather than argue that Plaintiff has satisﬁed the
prima facie requirement, Plaintiff disputes its applicability arguing that Brock and Dole were factually

App. 63
distinguishable labor cases.3 Instead, Plaintiff argues
that the Court should follow a line of cases where
plaintiffs were not required to ﬁrst make a prima facie
showing of ﬁrst amendment infringement. Plaintiff
points to Talley v. California, 362 U.S. 60, 65 (1960) and
Acorn Investments v. City of Seattle, 887 F.2d 219, 225
(9th Cir. 1989) as examples of such cases. However,
these cases are distinguishable from the facts at hand
as they pertain to instances where members of groups
would be publicly identiﬁed and, as a result, face retaliation. See Talley, 362 U.S. at 65 (relying on earlier
holdings where the “identiﬁcation [of group members]
and fear of reprisal might deter perfectly peaceful discussions of public matters of importance”); Acorn Investments, 887 F.2d at 225 (striking down a city
ordinance requiring the public disclosure of the names
and addresses of shareholders of corporations because
it may have a chilling effect on expression). In contrast,
here, Plaintiff is challenging Defendant’s request to
view Plaintiff ’s Schedule B in conﬁdence and has not
alleged that its members would face any retaliation or
reprisals.
Brock provides a more analogous set of facts. In
that case, the Secretary of Labor, pursuant to his statutory powers, “initiated a compliance audit” of Local
375 after the Department of Labor discovered a discrepancy. Brock, 860 F.2d at 348. The Secretary of Labor subpoenaed “all records pertaining to the fund” and
3

The Ninth Circuit has also applied this ﬁrst amendment
framework, however, in non-labor cases. See, e.g., Perry v.
Schwarzenegger, 591 F.3d 1126, 1140 (9th Cir. 2009).

App. 64
the union refused to comply, arguing that doing so
would violate its First Amendment rights. Id. The
Ninth Circuit held that in order to prevail on a freedom
of association claim in the face of a “lawful governmental investigation[,]” the union must demonstrate a
“prima facie showing of arguable ﬁrst amendment infringement.” Id. at 349-51.
Based on the evidence provided to the Court, Defendant’s request appears to be justiﬁed by a legitimate
law enforcement purpose pursuant to Defendant’s role
as the chief regulator of charitable organizations in the
state. See Cal. Gov’t Code §§ 12598(a), 12581. Under
California’s Supervision of Trustees and Fundraisers
for Charitable Purposes Act, Defendant is charged
with supervising charitable trusts and public beneﬁt
corporations incorporated in, or conducting business in
California and to protect charitable assets for their intended use. See Opp’n, ECF No. 10 at 10 (citing Cal.
Gov’t Code §§ 12598(a), 12581). In addition, Defendant
has “broad powers under common law and California
statutory law to carry out these charitable trust enforcement responsibilities.” Cal. Gov’t Code § 12598(a).
Defendant may investigate transactions and relationships to ascertain whether the purposes of the corporation or trust are being carried out. Opp’n, ECF No.
10 at 10. In order to do so, Defendant may require any
agent, trustee, ﬁduciary, beneﬁciary, institution, association, or corporation, or other person to appear and
to produce records. Id. (citing Cal. Gov’t Code § 12588).
Such an order “shall have the same force and effect as
a subpoena.” Cal. Gov’t Code § 12589. Defendant may

App. 65
also require periodic written reports from charitable
organizations. See Cal. Gov’t Code § 12586. Further,
pursuant to the Supervision of Trustees and Fundraisers for Charitable Purposes Act, Defendant maintains
the Registry, and in so doing, has the power to obtain
“whatever information, copies of instruments, reports,
and records are needed for the establishment and
maintenance of the register.” Id. (citing Cal. Gov’t Code
§ 12584). In light of Defendant’s role as the state’s chief
regulator of charitable organizations, Defendant’s request is more analogous to the facts in Brock and Dole
than the challenges to ordinances in Talley and Acorn
Investments. Therefore, the Court concludes that the
prima facie showing requirement as articulated by the
Ninth Circuit in Brock is applicable in this case.
Here, Plaintiff has not articulated any, objective
speciﬁc harm that will result to its members if Defendant is permitted to require that Plaintiff produce an
unredacted copy of its Schedule B. Plaintiff only suggests that if it is forced to comply with Defendant’s
demand, such an action “threatens to curtail” its ﬁnancial support. ECF No. 9-1 at 18. As Defendant notes,
“[m]ere speculation about or opinion of the possible
consequences of such disclosure is entirely inadequate”
to support a prima facie showing of arguable ﬁrst
amendment infringement. ECF No. 10 at 18; see Dole,
921 F.2d at 974. For example, in Dole, the Ninth Circuit
held that “two letters from members who stated that
they would no longer attend meetings” satisﬁed the
prima facie showing requirement and “clearly suggest[ed] ‘an impact on . . . the members’ associational

App. 66
rights.’ ” Dole, 950 F.2d at 1460 (citing Brock, 860 F.2d
at 350). Plaintiff did not make such a showing here.
Therefore, because Plaintiff failed to establish a prima
facie showing of arguable ﬁrst amendment infringement, it has not demonstrated that it is likely to prevail on the merits at this point in the proceeding.
Moreover, even if Plaintiff had presented a prima
facie showing, based on the evidence before the Court
at this time, Defendant’s request appears to be justiﬁed by compelling state interests and is narrowly tailored to achieve those interests. Defendant’s interest in
performing her regulatory and oversight function as
delineated by state law is compelling and substantially
related to the disclosure requirement. Defendant
points out that the requested information allows her
to determine “whether an organization has violated
the law, including laws against self-dealing, Cal. Corp.
Code § 5233; improper loans, id. § 5236; interested persons, id. § 5227; or illegal or unfair business practices,
Cal. Bus. & Prof. Code § 17200.” Opp’n, ECF No. 10 at
19-20. Further, the required disclosure appears to be
narrowly tailored with respect to Plaintiff ’s right of association because the Registry is kept conﬁdential and
Plaintiff ’s Schedule B would not be disclosed publically. On this ground too, then, Plaintiff failed to show
it is likely to succeed on the merits.

App. 67
B. Irreparable Harm, Balancing the Hardships,
and Public Interest
Plaintiff asserts that it will suffer irreparable injury through the loss of its First Amendment freedoms.
While “[a]n alleged constitutional infringement will often alone constitute irreparable harm . . . In this case,
however, the constitutional claim is too tenuous to support” the issuance of a preliminary injunction. Goldie’s
Bookstore, Inc. v. Superior Court of State of Cal.,
739 F.2d 466, 472 (9th Cir. 1984). Because “the Court
ﬁnds [that] no serious First Amendment questions
are raised. . . . there is no risk of irreparable injury
to Plaintiffs’ contributors.” ProtectMarriage.com v.
Bowen, 599 F. Supp. 2d at 1226; see Dex Media W., Inc.
v. City of Seattle, 790 F. Supp. 2d 1276, 1280-81 (W.D.
Wash. 2011) (stating that “[b]ecause the court ultimately concludes that Plaintiffs fail to establish either
a likelihood of irreparable injury or that a preliminary
injunction would be in the public interest”). Based on
the evidence before it, the Court does not ﬁnd that
Plaintiff will suffer irreparable harm if a preliminary
injunction is not issued. Moreover, in light of the facts
as presented to the Court at this stage in the proceeding, it is in the public interest that Defendant continues to serve chief regulator of charitable organizations
in the state in the manner sought.
CONCLUSION
Because Plaintiff failed to demonstrate that it is
likely to succeed on the merits or that Defendant’s

App. 68
action will cause a signiﬁcant threat of irreparable injury, Plaintiff ’s Motion for Preliminary Injunction,
ECF No. 9, is DENIED.
IT IS SO ORDERED.
Dated: May 13, 2014
/s/ Morrison C. England, Jr.
MORRISON C. ENGLAND, JR.
CHIEF JUDGE
UNITED STATES
DISTRICT COURT

App. 69
1.

CAL. GOV’T CODE § 12584 provides:

Register of charitable corporations and trustees
The Attorney General shall establish and maintain a
register of charitable corporations, unincorporated associations, and trustees subject to this article and of
the particular trust or other relationship under which
they hold property for charitable purposes and, to that
end, may conduct whatever investigation is necessary,
and shall obtain from public records, court ofﬁcers, taxing authorities, trustees, and other sources, whatever
information, copies of instruments, reports, and records are needed for the establishment and maintenance of the register.
2. CAL. GOV’T CODE § 12586 provides, in relevant
part:
Report on assets and administration; Rules and
regulations for reports; Time for filing first report; Requirements when gross revenue in excess of $2 million; Access to other audits;
Review and approval of compensation
(a) Except as otherwise provided and except corporate trustees which are subject to the jurisdiction of
the Commissioner of Financial Institutions of the
State of California under Division 1 (commencing with
Section 99) of the Financial Code or to the Comptroller
of the Currency of the United States, every charitable
corporation, unincorporated association, and trustee
subject to this article shall, in addition to ﬁling copies
of the instruments previously required, ﬁle with the

App. 70
Attorney General periodic written reports, under oath,
setting forth information as to the nature of the assets
held for charitable purposes and the administration
thereof by the corporation, unincorporated association,
or trustee, in accordance with rules and regulations of
the Attorney General.
(b) The Attorney General shall make rules and regulations as to the time for ﬁling reports, the contents
thereof, and the manner of executing and ﬁling them.
The Attorney General may classify trusts and other relationships concerning property held for a charitable
purpose as to purpose, nature of assets, duration of the
trust or other relationship, amount of assets, amounts
to be devoted to charitable purposes, nature of trustee,
or otherwise, and may establish different rules for the
different classes as to time and nature of the reports
required to the ends (1) that he or she shall receive
reasonably current, periodic reports as to all charitable
trusts or other relationships of a similar nature, which
will enable him or her to ascertain whether they are
being properly administered, and (2) that periodic reports shall not unreasonably add to the expense of the
administration of charitable trusts and similar relationships. The Attorney General may suspend the ﬁling of reports as to a particular charitable trust or
relationship for a reasonable, speciﬁcally designated
time upon written application of the trustee ﬁled with
the Attorney General and after the Attorney General
has ﬁled in the register of charitable trusts a written
statement that the interests of the beneﬁciaries will

App. 71
not be prejudiced thereby and that periodic reports are
not required for proper supervision by his or her ofﬁce.
3.

CAL. CODE REGS, tit.11, § 301 provides:

Periodic Written Reports
Except as otherwise provided in the Act, every
charitable corporation, unincorporated association,
trustee, or other person subject to the reporting requirements of the Act shall also ﬁle with the Attorney
General periodic written reports, under oath, setting
forth information as to the nature of the assets held for
charitable purposes and the administration thereof by
such corporation, unincorporated association, trustee,
or other person. Except as otherwise provided in these
regulations, these reports include the Annual Registration Renewal Fee Report, (“RRF-1” 3/05), hereby incorporated by reference, which must be ﬁled with the
Registry of Charitable Trusts annually by all registered charities, as well as the Internal Revenue Service
Form 990, which must be ﬁled on an annual basis with
the Registry of Charitable Trusts, as well as with the
Internal Revenue Service. At the time of the annual renewal of registration ﬁling the RRF-1, the registrant
must submit a fee, as set forth in section 311.
A tax-exempt charitable organization which is allowed
to ﬁle form 990-PF or 990-EZ with the Internal Revenue Service, may ﬁle that form with the Registry of
Charitable Trusts in lieu of Form 990.

App. 72
A charitable organization that is not exempt from taxation under federal law shall use Internal Revenue
Service Form 990 to comply with the reporting provisions of the Supervision of Trustees and Fundraisers
for Charitable Purposes Act. The form shall include, at
the top of the page, in 10-point type, all capital letters,
“THIS ORGANIZATION IS NOT EXEMPT FROM
TAXATION.”
Registration requirements for commercial fundraisers
for charitable purposes, fundraising counsel for charitable purposes, and commercial coventurers are set
forth in section 308.
4.

CAL. CODE REGS, tit.11, § 310(b) provides:

Donor information exempt from public inspection pursuant to Internal Revenue Code section 6104(d)(3)(A)
shall be maintained as conﬁdential by the Attorney
General and shall not be disclosed except as follows:
(1) In a court or administrative proceeding brought
pursuant to the Attorney General’s charitable trust enforcement responsibilities; or
(2)

In response to a search warrant.

App. 73
5. CAL. GOV’T CODE § 12591.1 provides, in relevant
part:
Civil penalty; Cease and desist orders; Suspension of registration; Hearing; Opportunity to correct violation
*

*

*

(c) The Attorney General may impose a penalty on
any person or entity, not to exceed one thousand dollars ($1,000) per act or omission, for each act or omission that constitutes a violation of this article or
Chapter 4 (commencing with Section 300) of Division
1 of Title 11 of the California Code of Regulations. At
least ﬁve days prior to imposing that penalty, the Attorney General shall provide notice to the person or entity that committed the violation by certiﬁed mail to
the address of record at the Registry of Charitable
Trusts. Penalties shall accrue, commencing on the ﬁfth
day after notice is given, at a rate of one hundred dollars ($100) per day for each day until that person or
entity corrects that violation. Penalties shall stop accruing as of the date set forth in the written notice provided by the Attorney General that the violation or
omission subject to penalties has been corrected or
remedied.
(d) If the Attorney General assesses penalties under
this section, the Attorney General may suspend the
registration of that person or entity in accordance with
the procedures set forth in Section 999.6 of Title 11 of
the California Code of Regulations. Registration shall
be automatically suspended until the ﬁne is paid and
no registration shall be renewed until the ﬁne is paid.

App. 74
6.

CAL. GOV’T CODE § 12598 states, in relevant part:

Attorney General’s powers for enforcement responsibilities; Recovery of costs
*

*

*

(e)
(1) The Attorney General may refuse to register
or may revoke or suspend the registration of a charitable corporation or trustee, commercial fundraiser,
fundraising counsel, or coventurer whenever the Attorney General ﬁnds that the charitable corporation or
trustee, commercial fundraiser, fundraising counsel, or
coventurer has violated or is operating in violation of
any provisions of this article.
7.

26 U.S.C. § 6104(c) provides, in relevant part:

Publicity of information required from certain
exempt organizations and certain trusts.
*

*

*

(3) Disclosure with respect to certain other exempt organizations. Upon written request by an appropriate State ofﬁcer, the Secretary may make available
for inspection or disclosure returns and return information of any organization described in section 501(c)
(other than organizations described in paragraph (1)
or (3) thereof ) for the purpose of, and only to the extent
necessary in, the administration of State laws regulating the solicitation or administration of the charitable
funds or charitable assets of such organizations. Such

App. 75
information may only be inspected by or disclosed to a
person other than the appropriate State ofﬁcer if such
person is an ofﬁcer or employee of the State and is designated by the appropriate State ofﬁcer to receive the
returns or return information under this paragraph on
behalf of the appropriate State ofﬁcer.
8.

26 U.S.C. § 6104(d) provides in relevant part:

(d) Public inspection of certain annual returns, reports, applications for exemption, and notices of status.
*
(3)

*

*

Exceptions from disclosure requirement.

(A) Nondisclosure of contributors, etc. In the case
of an organization which is not a private foundation
(within the meaning of section 509(a)) or a political organization exempt from taxation under section 527,
paragraph (1) shall not require the disclosure of the
name or address of any contributor to the organization.
In the case of an organization described in section
501(d), paragraph (1) shall not require the disclosure
of the copies referred to in section 6031(b) with respect
to such organization.

App. 76
9.

26 U.S.C. § 7213 provides, in relevant part:

Unauthorized disclosure of information.
(a)

Returns and return information.

(1) Federal employees and other persons. It shall
be unlawful for any ofﬁcer or employee of the United
States or any person described in section 6103(n) (or
an ofﬁcer or employee of any such person), or any former ofﬁcer or employee, willfully to disclose to any person, except as authorized in this title, any return or
return information (as deﬁned in section 6103(b)). Any
violation of this paragraph shall be a felony punishable
upon conviction by a ﬁne in any amount not exceeding
$5,000, or imprisonment of not more than 5 years, or
both, together with the costs of prosecution, and if such
offense is committed by any ofﬁcer or employee of the
United States, he shall, in addition to any other punishment, be dismissed from ofﬁce or discharged from
employment upon conviction for such offense.
(2) State and other employees. It shall be unlawful for any person (not described in paragraph (1)) willfully to disclose to any person, except as authorized in
this title, any return or return information (as deﬁned
in section 6103(b)) acquired by him or another person
under subsection (d), (i)(3)(B)(i) or (7)(A)(ii), (k)(10),(13)
(l)(6), (7), (8), (9), (10), (12), (15), (16), (19), (20), or (21)
or (m)(2), (4), (5), (6), or (7) of section 6103 or under
section 6104(c). Any violation of this paragraph shall
be a felony punishable by a ﬁne in any amount not exceeding $5,000, or imprisonment of not more than 5
years, or both, together with the costs of prosecution.

App. 77
(3) Other persons. It shall be unlawful for any
person to whom any return or return information (as
deﬁned in section 6103(b)) is disclosed in a manner unauthorized by this title thereafter willfully to print or
publish in any manner not provided by law any such
return or return information. Any violation of this paragraph shall be a felony punishable by a ﬁne in any
amount not exceeding $5,000, or imprisonment of not
more than 5 years, or both, together with the costs of
prosecution.
(4) Solicitation. It shall be unlawful for any person willfully to offer any item of material value in
exchange for any return or return information (as deﬁned in section 6103(b)) and to receive as a result of
such solicitation any such return or return information. Any violation of this paragraph shall be a felony punishable by a ﬁne in any amount not exceeding
$5,000, or imprisonment of not more than 5 years, or
both, together with the costs of prosecution.
(5) Shareholders. It shall be unlawful for any
person to whom a return or return information (as deﬁned in section 6103(b)) is disclosed pursuant to the
provisions of section 6103(e)(1)(D)(iii) willfully to disclose such return or return information in any manner
not provided by law. Any violation of this paragraph
shall be a felony punishable by a ﬁne in any amount
not to exceed $5,000, or imprisonment of not more than
5 years, or both, together with the costs of prosecution.
*

*

*

App. 78
(c) Disclosures by certain delegates of Secretary. All
provisions of law relating to the disclosure of information, and all provisions of law relating to penalties
for unauthorized disclosure of information, which
are applicable in respect of any function under this
title when performed by an ofﬁcer or employee of the
Treasury Department are likewise applicable in respect of such function when performed by any person
who is a “delegate” within the meaning of section
7701(a)(12)(B).
*
(e)

*

*

Cross references.

(1) Penalties for disclosure of information by preparers of returns. For penalty for disclosure or use of
information by preparers of returns, see section 7216.
(2) Penalties for disclosure of conﬁdential information. For penalties for disclosure of conﬁdential information by any ofﬁcer or employee of the United
States or any department or agency thereof, see 18
U.S.C. 1905.
10.

26 U.S.C. § 7431 provides, in relevant part:

Civil damages for unauthorized inspection or
disclosure of returns and return information.
(a)

In general.

(1) Inspection or disclosure by employee of
United States. If any ofﬁcer or employee of the United
States knowingly, or by reason of negligence, inspects

App. 79
or discloses any return or return information with respect to a taxpayer in violation of any provision of section 6103, such taxpayer may bring a civil action for
damages against the United States in a district court
of the United States.
(2) Inspection or disclosure by a person who is
not an employee of United States. If any person who
is not an ofﬁcer or employee of the United States knowingly, or by reason of negligence, inspects or discloses
any return or return information with respect to a taxpayer in violation of any provision of section 6103 or in
violation of section 6104(c), such taxpayer may bring a
civil action for damages against such person in a district court of the United States.
(b) Exceptions. No liability shall arise under this section with respect to any inspection or disclosure –
(1) which results from a good faith, but erroneous, interpretation of section 6103, or
(2)

which is requested by the taxpayer.

(c) Damages. In any action brought under subsection
(a), upon a ﬁnding of liability on the part of the defendant, the defendant shall be liable to the plaintiff in an
amount equal to the sum of—
(1) the greater of—
(A) $ 1,000 for each act of unauthorized inspection or disclosure of a return or return information
with respect to which such defendant is found liable,
or

App. 80
(B)

the sum of—

(i) the actual damages sustained by the
plaintiff as a result of such unauthorized inspection or
disclosure, plus
(ii) in the case of a willful inspection or disclosure or an inspection or disclosure which is the result of gross negligence, punitive damages, plus
(2)

the costs of the action, plus

(3) in the case of a plaintiff which is described in
section 7430(c)(4)(A)(ii), reasonable attorneys fees, except that if the defendant is the United States, reasonable attorneys fees may be awarded only if the plaintiff
is the prevailing party (as determined under section
7430(c)(4)).
(d) Period for bringing action. Notwithstanding any
other provision of law, an action to enforce any liability
created under this section may be brought, without regard to the amount in controversy, at any time within
2 years after the date of discovery by the plaintiff of
the unauthorized inspection or disclosure.
(e) Notiﬁcation of unlawful inspection and disclosure. If any person is criminally charged by indictment
or information with inspection or disclosure of a taxpayer’s return or return information in violation of—
(1)

paragraph (1) or (2) of section 7213(a),

(2)

section 7213A(a), or

App. 81
(3) subparagraph (B) of section 1030(a)(2) of title
18, United States Code, the Secretary shall notify such
taxpayer as soon as practicable of such inspection or
disclosure.

App. 82
KAMALA D. HARRIS State of California
Attorney General
DEPARTMENT OF [SEAL]
JUSTICE
1300 I Street
P. O. Box 903447
Sacramento, CA 94203-4470
Telephone: (916) 445-2021
Fax: (916) 444-3651
E-Mail Address:RCT @doj.ca.gov
February 6, 2014
CENTER FOR
COMPETITIVE POLITICS
124 S. WEST STREET, #201
ALEXANDRIA VA 22314
RE:

CT FILE NUMBER:
CT0149998

IRS Form 990 Schedule B, Schedule of Contributors

We have received the IRS Form 990, 990-EZ or
990-PF submitted by the above-named organization
for ﬁling with the Registry of Charitable Trusts (Registry) for the ﬁscal year ending 12/31/2012. The ﬁling
is incomplete because the copy of Schedule B, Schedule of Contributors, does not include the names and addresses of contributors.
The copy of the IRS Form 990, 990-EZ or 990-PF,
including all attachments, ﬁled with the Registry must
be identical to the document ﬁled by the organization
with the Internal Revenue Service. The Registry retains Schedule B as a conﬁdential record for IRS Form
990 and 990-EZ ﬁlers.

App. 83
Within 30 days of the date of this letter, please submit
a complete copy of Schedule B, Schedule of Contributors, for the ﬁscal year noted above, as ﬁled with the
Internal Revenue Service. Please address all correspondence to the undersigned.
Sincerely,
/s/ AB
Ofﬁce Technician
Registry of Charitable Trusts
For KAMALA D. HARRIS
Attorney General

App. 84
KAMALA D. HARRIS State of California
Attorney General
DEPARTMENT OF [SEAL]
JUSTICE
1300 I Street
P. O. Box 903447
Sacramento, CA 94203-4470
Telephone: (916) 445-2021 Ext 6
Fax: (916) 444-3651
E-Mail Address: Delinquency@doj.ca.gov
December 11, 2014
CENTER FOR
COMPETITIVE POLITICS
124 S. WEST STREET, #201
ALEXANDRIA VA 22314

CT FILE NUMBER:
CT0149998

RE: WARNING OF ASSESSMENT OF PENALTIES
AND LATE FEES, AND SUSPENSION OR REVOCATION OF REGISTERED STATUS
The Registry of Charitable Trusts has not received annual report(s) for the captioned organization, as follows:
1.

The IRS Form 990, 990-EZ or 990-PF submitted
for the ﬁscal year ending 12/31/12 does not contain
a copy of the Schedule B, Schedule of Contributors,
with the names and adddresses [sic] of the contributors as required. The copy of the IRS Form 990,
990-EZ or 990-PF, including all attachments, ﬁled
with the Registry must be identical to the document ﬁled by the organization with the Internal
Revenue Service. The Registry retains Schedule B

App. 85
as a conﬁdential record for IRS Form 990 and 990EZ ﬁlers.
Failure to timely ﬁle required reports violates
Government Code section 12586.
Unless the above-described report(s) are ﬁled
with the Registry of Charitable Trusts within
thirty (30) days of the date of this letter, the following will occur:
1.

The California Franchise Tax Board will be notiﬁed to disallow the tax exemption of the abovenamed entity. The Franchise Tax Board may
revoke the organization’s tax exempt status at
which point the organization will be treated as a
taxable corporation (See Revenue and Taxation
Code section 23703) and may be subject to the
minimum tax penalty.

2.

Late fees will be imposed by the Registry of Charitable Trusts for each month or partial month for
which the report(s) are delinquent. Directors, trustees, ofﬁcers and return preparers responsible for
failure to timely ﬁle these reports are also personally liable for payment of all late fees.
PLEASE NOTE: Charitable assets cannot be
used to pay these avoidable costs. Accordingly, directors, trustees, ofﬁcers and return preparers responsible for failure to timely ﬁle the abovedescribed report(s) are personally liable for payment of all penalties, interest and other costs incurred to restore exempt status.

3.

In accordance with the provisions of Government
Code section 12598, subdivision (e), the Attorney

App. 86
General will suspend the registration of the
above-named entity.
If you believe the above described report(s) were
timely ﬁled, they were not received by the Registry
and another copy must be ﬁled within thirty (30)
days of the date of this letter. In addition, if the
address of the above-named entity differs from
that shown above, the current address must be
provided to the Registry prior to or at the time the
past-due reports are ﬁled.
In order to avoid the above-described actions, please
send all delinquent reports to the address set forth
above, within thirty (30) days of the date of this letter.
Thank you for your attention to this correspondence.
Sincerely,
Registry of Charitable Trusts
For KAMALA D. HARRIS
Attorney General
Detailed instructions and forms for ﬁling can be found
on our website at http://ag.ca.gov/charities.

